<html>
<title> - REAUTHORIZING BRAND USA AND THE U.S. SAFE WEB ACT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
           REAUTHORIZING BRAND USA AND THE U.S. SAFE WEB ACT

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CONSUMER PROTECTION AND COMMERCE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2019

                               __________

                           Serial No. 116-75
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           
                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                        
                           ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
43-859 PDF            WASHINGTON : 2021 
                         
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
            Subcommittee on Consumer Protection and Commerce

                        JAN SCHAKOWSKY, Illinois
                                Chairwoman
KATHY CASTOR, Florida                CATHY McMORRIS RODGERS, Washington
MARC A. VEASEY, Texas                  Ranking Member
ROBIN L. KELLY, Illinois             FRED UPTON, Michigan
TOM O'HALLERAN, Arizona              MICHAEL C. BURGESS, Texas
BEN RAY LUJAN, New Mexico            ROBERT E. LATTA, Ohio
TONY CARDENAS, California, Vice      BRETT GUTHRIE, Kentucky
    Chair                            LARRY BUCSHON, Indiana
LISA BLUNT ROCHESTER, Delaware       RICHARD HUDSON, North Carolina
DARREN SOTO, Florida                 EARL L. ``BUDDY'' CARTER, Georgia
BOBBY L. RUSH, Illinois              GREG GIANFORTE, Montana
DORIS O. MATSUI, California          GREG WALDEN, Oregon (ex officio)
JERRY McNERNEY, California
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Jan Schakowsky, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
    Prepared statement...........................................     2
Hon. Cathy McMorris Rodgers, a Representative in Congress from 
  the State of Washington, opening statement.....................     3
    Prepared statement...........................................     5
Hon. Peter Welch, a Representative in Congress from the State of 
  Vermont, opening statement.....................................     6
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     8
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................    61

                               Witnesses

Christopher L. Thompson, President and Chief Executive Officer, 
  Brand USA......................................................    10
    Prepared statement...........................................    12
    Additional material submitted for the record \1\
Tori Emerson Barnes, Executive Vice President, Public Affairs and 
  Policy, U.S. Travel Association................................    21
    Prepared statement...........................................    23
Aaron Burstein, Partner, Wilkinson Barker Knauer, LLP............    28
    Prepared statement...........................................    30

                           Submitted Material

H.R. 3851, the Travel Promotion, Enhancement, and Modernization 
  Act of 2019....................................................    63
Discussion Draft, H.R. 4779......................................    65
Article of May 15, 2019, ```Brand USA' helps keep Oregon a world-
  class travel destination,'' by James Brandt, Hood River News, 
  submitted by Mr. Walden........................................    67
Letter of October 25, 2019, from Joseph J. Simons, Chairman, 
  Federal Trade Commission, et al., to Ms. Schakowsky and Mrs. 
  Rodgers, submitted by Ms. Schakowsky...........................    69
Letter of October 29, 2019, from Marc Rotenberg, President, 
  Electronic Privacy Information Center, et al., to Ms. 
  Schakowsky and Mrs. Rodgers, submitted by Ms. Schakowsky \2\
Letter of October 29, 2019, from Brian C. Crawford, Executive 
  Vice President, Government Affairs, American Hotel & Lodging 
  Association, to Mr. Pallone, et al., submitted by Ms. 
  Schakowsky.....................................................    74

----------

\1\ Two documents submitted by Mr. Thompson, ``Annual Report: Fiscal 
Year 2018, Brand USA'' and ``The Return on Investment of Brand USA 
Marketing: FY 2018,'' have been retained in committee files and also 
are available at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=110153.
\2\ The letter has been retained in committee files and also is 
available at http://docs.house.gov/meetings/IF/IF17/20191029/110153/
HHRG-116-IF17-20191029-SD006.pdf.


           REAUTHORIZING BRAND USA AND THE U.S. SAFE WEB ACT

                              ----------                              


                       TUESDAY, OCTOBER 29, 2019

                  House of Representatives,
  Subcommittee on Consumer Protection and Commerce,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:28 p.m., in 
Room 2322, Rayburn House Office Building, Hon. Jan Schakowsky 
[chairwoman of the subcommittee] presiding.
    Members present: Representatives Schakowsky, Castor, 
Veasey, Kelly, O'Halleran, Blunt Rochester, Soto, Matsui, 
McNerney, Rodgers (subcommittee ranking member), Burgess, 
Latta, Guthrie, Bucshon, Hudson, Carter, and Walden (ex 
officio).
    Also present: Representatives Welch and Bilirakis.
    Staff present: Lisa Goldman, Senior Counsel; Waverly 
Gordon, Deputy Chief Counsel; Alex Hoehn-Saric, Chief Counsel, 
Communications and Consumer Protection; Zach Kahan, Outreach 
and Member Service Coordinator; Meghan Mullon, Staff Assistant; 
Joe Orlando, Executive Assistant; Alivia Roberts, Press 
Assistant; Tim Robinson, Chief Counsel; Chloe Rodriguez, Policy 
Analyst; Sydney Terry, Policy Coordinator; Rebecca Tomilchik, 
Staff Assistant; Anna Yu, Professional Staff Member; Margaret 
Tucker Fogarty, Minority Legislative Clerk/Press Assistant; 
Theresa Gambo, Minority Financial and Office Administrator; 
Bijan Koohmaraie, Minority Deputy Chief Counsel, Consumer 
Protection and Commerce; Tim Kurth, Minority Chief Counsel, 
Consumer Protection and Commerce; and Brannon Rains, Minority 
Legislative Clerk.
    Ms. Schakowsky. The Subcommittee on Consumer Protection and 
Commerce will now come to order. So let me thank all of you for 
coming. I appreciate it. We had a vote, and so I am glad that 
you are all here, and we can begin.

 OPENING STATEMENT OF HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    So today we are going to be talking about reauthorizing two 
important programs in the subcommittee's jurisdiction.
    When I talk about my subcommittee to constituents of mine, 
I often tell them that the Energy and Commerce Committee has 
the broadest jurisdiction of any standing committee in the 
Congress, but also that this Subcommittee on Consumer 
Protection and Commerce also has the largest jurisdiction. And 
nothing makes this point more clear than today's hearing when 
we will discuss legislation to promote inbound travel and 
tourism to the United States and legislation to help the 
Federal Trade Commission protect Americans from fraud that 
originates overseas.
    Brand USA was authorized to work directly with the United 
States tourism and travel industry to maximize the social and 
economic benefits of travel. The bill we are considering today 
was introduced by my friend and colleague and author of the 
legislation, Peter Welch, and I want to thank him for his 
leadership on this very important issue.
    I am sure that all of my colleagues here would agree that 
their lives have been enhanced by their own travel, and we all 
appreciate tourism coming to our direction and experiencing 
what we each love so much about the districts that we 
represent.
    Brand USA has been great for Chicago, and I am so excited 
to make sure that the program is reauthorized.
    I am also pleased that we are reauthorizing the U.S. SAFE 
WEB Act. Congress amended the Federal Trade Commission Act in 
2006 to bolster the FTC's ability to combat fraud that 
originates overseas.
    Doing so strengthened the FTC in four ways. One, it 
confirmed that the agency's jurisdiction extends to foreign 
wrongdoers that harm U.S. consumers. Two, it authorizes limited 
but proper collaboration with foreign law enforcement, 
including investigative assistance and the sharing of 
information. Three, it enhances the FTC's ability to receive 
information from foreign countries by allowing confidential 
treatment of information received. And four, it promotes 
relationship building by allowing the FTC to participate in 
staff exchanges with their foreign counterparts.
    The bill we are discussing today, which would reauthorize 
these authorities for another 7 years, was introduced by my 
friend and colleague and ranking member of the subcommittee, 
Cathy McMorris Rodgers, and I want to thank her for her 
leadership on this issue and her partnership on the 
subcommittee as ranking member.
    I am proud to be the cosponsor of both these pieces of 
legislation and look forward to working with staff and 
stakeholders.
    [The proposed legislation appears at the conclusion of the 
hearing. The prepared statement of Ms. Schakowsky follows:]

               Prepared Statement of Hon. Jan Schakowsky

    Good morning and thank you all for joining us today for a 
hearing on reauthorizing two important programs in this 
subcommittee's jurisdiction.
    When I talk to constituents about my role here in the 
Energy and Commerce Committee, I often tell them that Energy 
and Commerce has the broadest jurisdiction of any standing 
committee in the House, and that this subcommittee has the 
broadest jurisdiction of any Energy and Commerce subcommittee.
    And nothing makes this more clear than today's hearing, 
where we will discuss legislation to promote inbound travel and 
tourism to the United States, and legislation to help the 
Federal Trade Commission protect Americans from fraud that 
originates overseas.
    Brand USA was authorized to work directly with the United 
States' tourism and travel industry to maximize the social and 
economic benefits of travel. The bill we are considering today 
was introduced by my friend and colleague Peter Welch, and I 
thank him for his leadership on this important issue.
    I am sure that all of my colleagues here would agree that 
their lives have been enriched by their own travels, and we all 
appreciate tourists coming to our district and experiencing 
what we each love so much about the districts we represent.
    Brand USA has been great for Chicago, so I am excited to 
make sure that the program is reauthorized.
    I also am pleased that we are reauthorizing the U.S. SAFE 
WEB Act. Congress amended the Federal Trade Commission Act in 
2006 to bolster the FTC's ability to combat fraud that 
originates overseas. Doing so strengthened the FTC in four key 
ways:
    1. It confirmed the agency's jurisdiction extends to 
foreign wrongdoers that harm U.S. consumers.
    2. It authorized limited but proper collaboration with 
foreign law enforcement, including investigative assistance and 
the sharing of information.
    3. It enhanced the FTC's ability to receive information 
from foreign counterparts by allowing confidential treatment of 
information received.
    4. It promoted relationship building by allowing the FTC to 
participate in staff exchanges with their foreign counterparts.
    The bill we are discussing today, which would reauthorize 
these authorities for another seven years, was introduced by my 
friend, colleague, and Ranking Member Cathy McMorris Rodgers. 
Thank you for your leadership on this, and your partnership on 
the subcommittee, Ranking Member Rodgers.
    I am a proud cosponsor of both of these bills, and I look 
forward to working with stakeholders and colleagues to advance 
these important reauthorizations promptly.

    Ms. Schakowsky. And now I would like to yield the balance 
of my time to Congresswoman Robin Kelly.
    Ms. Kelly. Thank you, Chairwoman Schakowsky, for holding 
this legislative hearing on H.R. 4779, the SAFE WEB Act, and 
H.R. 3851, Reauthorizing Brand USA.
    H.R. 4779 is an important bipartisan bill that will allow 
the FTC to continue international cooperation for 
investigations of fraud and abuse. Online criminals know no 
borders, and Americans are often targeted from abroad. With the 
SAFE WEB Act, the FTC can share information and prohibit third-
party recipients of a subpoena from notifying the target during 
an investigation. These are essential tools to build cases that 
can bring victims needed justice.
    As an international leader in consumer protection, the FTC 
will also be able to continue its relationship building with 
international staff exchanges. These exchanges provide 
continued leadership for the FTC and help train other partners 
in enforcementbest practices.
    It has been a true pleasure working with Ranking Member 
McMorris Rodgers on the SAFE WEB Act.
    And I yield back.
    Ms. Schakowsky. The gentlelady yields back.
    And now I am happy to recognize Mrs. Rodgers, our ranking 
member, for an opening statement of 5 minutes.

      OPENING STATEMENT OF HON. CATHY McMORRIS RODGERS, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. Rodgers. Good afternoon, and welcome to the Consumer 
Protection and Commerce Subcommittee legislative hearing today 
on reauthorizing two important U.S. programs, Brand USA and the 
U.S. SAFE WEB Act.
    Earlier this year, this subcommittee held an oversight 
hearing with the Federal Trade Commission where we focused much 
of our attention on data privacy and how we can come together 
in Congress to deliver a Federal bill that provides uniform and 
strong consumer protections.
    At that same hearing, the Commission impressed upon us the 
importance of the U.S. SAFE WEB Act and the need to extend it. 
The Commissioners testified that it was key to the FTC's 
international work, and we agree.
    Today is the first step in extending this vital program. I 
want to thank the gentlelady from Illinois, Robin Kelly, along 
with Mr. Bucshon and Chair Schakowsky, for joining on this bill 
to extend the U.S. SAFE WEB Act so that it doesn't expire next 
September. Our proposal extends the program to 2027 and 
requires additional reporting from the 2006 bill so the FTC can 
report back on the critical work performed over the past 
decade.
    Since its passage in 2006 and its reauthorization, this 
program has proven to be an important part of the Commission's 
work. In our digital and connected world, the internet and e-
commerce knows no boundaries, so it is vital to provide tools 
for the Commission's international work.
    Thanks to the internet, small businesses, like etailz in 
Spokane Valley, can now reach people and customers globally. 
The internet has also made life-changing innovations possible 
that have raised our standard of living and connected us with 
the world.
    However, it has also presented new opportunities for 
criminals and bad actors. There are spam, spyware, misleading 
claims, privacy violations, data security breaches, 
telemarketing fraud, and more.
    To protect Americans, the FTC is our top cop on the beat 
both here at home and abroad. Thanks to the SAFE WEB Act, the 
Commission can work on cases with an international dimension. 
Specifically, the Commission can share evidence and provide 
assistance to foreign authorities.
    The Commission can also enter into enhanced enforcement 
cooperation with foreign counterparts through staff exchanges, 
international agreements, and other mechanisms.
    And the program has been a resounding success. Because of 
the SAFE WEB, the Commission has responded to more than 130 
information-sharing requests, issued more than 115 civil 
investigative demands in more than 50 investigations on behalf 
of foreign agencies, and secured settlements against companies 
that violated children's privacy online, engaged in sweepstakes 
scams, deception, and so much more.
    The program has been critical to securing the EU-U.S. 
Privacy Shield, which was extended by the EU Commission last 
week. Because the internet is borderless, this agreement safely 
and securely preserves the ability for U.S. companies to do 
business online in the EU by allowing transatlantic data flows.
    U.S. SAFE WEB is a successful tool for the FTC to protect 
Americans from online threats from overseas, and I am so 
pleased that we are extending it today on a bipartisan basis.
    I also want to thank Mr. Welch and Mr. Bilirakis for their 
leadership in reauthorizing Brand USA. Brand USA is a vital 
program to attract foreign visitors to the U.S. at no cost to 
taxpayers. Their focus on bringing tourism to areas like 
eastern Washington is spurring economic growth and is creating 
excitement around other parts of the country outside of the 
big-city gateways.
    Thank you again to our witnesses for being with us today, 
and I look forward to discussing these two important bills.
    I now yield back.
    [The prepared statement of Mrs. Rodgers follows:]

           Prepared Statement of Hon. Cathy McMorris Rodgers

    Good afternoon and welcome to the Consumer Protection and 
Commerce Subcommittee legislative hearing today on 
reauthorizing two important U.S. programs: Brand USA and the 
U.S. SAFE WEB Act.
    Earlier this year, this subcommittee held an oversight 
hearing with the Federal Trade Commission where we focused much 
of our attention on data privacy and how we can come together 
in Congress to deliver a Federal bill that provides uniform and 
strong consumer protections.
    At that same hearing, the Commission impressed upon us the 
importance of the U.S. SAFE WEB Act and the need to extend it.
    The Commissioners testified that it was key to the FTC's 
international work--and we agree. Today is the first step in 
extending this vital program.
    I want to thank my good friend from Illinois, Ms. Robin 
Kelly, along with Mr. Bucshon and Chair Schakowsky, for joining 
me on this bill to extend the U.S SAFE WEB Act so that it 
doesn't expire next September.
    Our proposal extends the program to 2027 and requires 
additional reporting from the 2006 bill, so the FTC can report 
back on the critical work performed over the past decade.
    Since its passage in 2006, and its reauthorization, this 
program has proven to be an important part of the Commission's 
mission.
    In our digital and connected world, the internet and e-
commerce know no borders, so it's vital to provide tools for 
the Commission's international work.
    Thanks to the Internet, small companies like etailz in 
Spokane Valley can now reach people and customers globally.
    The internet has also made life-changing innovations 
possible that have raised our standard of living and connected 
us with the world.
    However, it's also presented new opportunities for 
criminals and bad actors.
    There's spam, spyware, misleading claims, privacy 
violations, data security breaches, telemarketing fraud, and 
more.
    To protect Americans, the FTC is our top cop on the beat--
both here at home and abroad.
    Thanks to the SAFE WEB Act, the Commission can work on 
cases with an international dimension.
    Specifically, the Commission can share evidence and provide 
assistance to foreign authorities.
    The Commission can also enter into enhanced enforcement 
cooperation with foreign counterparts through staff exchanges, 
international agreements, and other mechanisms.
    And the program has been a resounding success.
    Because of the SAFEWEB, the Commission has responded to 
more than 130 information sharing requests, issued more than 
115 civil investigative demands in more than 50 investigations 
on behalf of foreign agencies and secured settlements against 
companies that violated children's privacy online, engaged in 
sweepstakes scams, deception, and so much more.
    The program has been crucial to securing the EU-U.S. 
Privacy Shield, which was just extended by the EU Commission 
last week.
    Because the internet is borderless, this agreement safely 
and securely preserves the ability for U.S. companies to do 
business online in the EU by allowing transatlantic data flows.
    US SAFEWEB is a successful tool for the FTC to protect 
Americans from online threats from overseas. I'm glad we are 
extending it on a bipartisan basis.
    I also want to thank Mr. Welch and Mr. Bilirakis for their 
efforts to reauthorize Brand USA. Brand USA is a vital program 
to attract foreign visitors to the US, at no cost to taxpayers.
    Their focus on bringing tourism to areas like Eastern 
Washington is spurring economic growth and it's creating 
excitement around other parts of the country outside of big 
city gateways.
    Thank you again to our witnesses for being with us today 
and I look forward to discussing these two important bills.
    I yield back.

    Ms. Schakowsky. The gentlelady yields back.
    And the Chair now recognizes Mr. Welch for 5 minutes for an 
opening statement.

  OPENING STATEMENT OF HON. PETER WELCH, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF VERMONT

    Mr. Welch. Well, I will be brief, because I think, Madam 
Chair, in addition to saying thank you for holding this 
hearing, you really covered why this is so important.
    But Brand USA, why wouldn't we want to do it when it is 
working? And we have a challenge. There is a huge economic 
benefit from tourism. International tourism is especially 
useful for our economy, and we are going to be hearing from the 
witnesses about the thousands of jobs and billions and billions 
of dollars of revenue.
    But there is another reason, I think, Mr. Bilirakis and I 
have worked on this. We do have a dispute, by the way, the two 
of us. He has some illusion that foreign visitors are attracted 
to Disney World, not Ben & Jerry's, but there is room for both 
of us.
    Mr. Bilirakis. There is room for both of us, absolutely.
    Mr. Welch. But here is the thing that is so important and 
what I find so really good working on issues where there is 
common ground. The tourism industry, it really requires people 
who live in each one of our communities to be so invested in 
what it is they are offering, their bed and breakfast or their 
Disney World or their Ben & Jerry's, whatever it is. It is 
local people who have enormous pride of place. And what they 
are selling, in effect, or offering, is this invitation to 
visitors to come and enjoy it.
    And it is so beneficial not just for the folks who work 
there, not just for the State revenues, but for sustaining that 
sense of community that all of us, all of us, in every part of 
this country, eastern Washington, in Florida, in Vermont, in 
Illinois, that we want to encourage and assist.
    So this is a public-private partnership, you know, a little 
bit on the visa and then significant contributions from the 
industry in kind, and this advertising makes a difference.
    So it is really a thrill to have this hearing. And thank 
you so much for being so strong an advocate of this, Chairwoman 
Schakowsky and McMorris Rodgers.
    And to my partner, thank you. But come up and get some Ben 
& Jerry's, all right?
    Thank you.
    Ms. Schakowsky. You could bring it.
    Does the gentleman yield back?
    Mr. Welch. I am sorry. I yield back.
    If we get this bill passed, Ben & Jerry's all around.
    [Laughter.]
    Ms. Schakowsky. That is a deal. Hey.
    The Chair now recognizes Mr. Walden, ranking member of the 
full committee, for 5 minutes for his opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Madam Chair.
    And good afternoon to our witnesses.
    I am very pleased that the chairwoman has agreed to have 
this subcommittee hearing. It is really important work. And we 
have talked about this a time or two, about moving this 
forward.
    And while the Travel Promotion Act's funding authorization 
of Brand USA, as well as the U.S. SAFE WEB Act, do not expire 
until next year, I think it is really important. We know the 
challenges of successfully moving legislative priorities 
through both Chambers in a timely fashion. It is hard work no 
matter what is going on.
    This subcommittee can do great things for consumers and 
does, and I want to be optimistic we can move these items as 
well as other priorities, such as autonomous vehicles, and I 
know our teams are working on that, and privacy also, in a 
bipartisan manner.
    My friend Mrs. Rodgers and myself will surely--well, I 
guess they say here debate who has the better wineries in our 
neighboring States.
    Mrs. Rodgers. No debate.
    Mr. Walden. There is no debate, that is right. But maybe we 
can agree a good way to solve the argument is if travelers from 
abroad come find out for themselves, and we could be there to 
help referee this.
    The Bureau of Economic Analysis also reinforces our 
assessment of such benefits by reporting that foreign visitors 
account for a disproportionate amount of U.S. travel and 
tourism spending. And for those who might criticize the Brand 
USA program, they should know it does not cost taxpayers one 
dime.
    So please direct your travelers out our way if you are 
critical of it. I would like to make them aware of not just our 
great wineries and breweries, but also the deepest freshwater 
lake in America, Crater Lake, the Painted Hills, the Pendleton 
Round-Up, ``Let'er Buck,'' and our countless mountains, rivers, 
and forests.
    I am sure we all have similar stories, although certainly 
not as great as mine, from our districts. I mean, if you are 
just down to ice cream and nothing else to talk about, I mean, 
really? We have Tillamook ice cream. We could have, like, an 
ice cream-off here, you know, before I leave.
    Mr. Welch. No Ben & Jerry's to Mr. Walden.
    Mr. Walden. I don't think I yielded. I can't imagine why I 
would have.
    So anyway, we all think this is a great program, I believe.
    And I also want to thank Mr. Welch and Mr. Bilirakis in 
sponsoring this important legislation, too.
    I would also like to ask, Madam Chair, unanimous consent 
that an opinion piece by Jason Brandt, who is the CEO of the 
Oregon Restaurant and Lodging Association, it appeared in the 
Hood River News, my hometown paper, be included in the record, 
on the benefits of the program if that meets without objection.
    Ms. Schakowsky. So ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. And let me segue to another important element 
in our international relationship.
    Since the committee first created the SAFE WEB Act and our 
former colleague, Mary Bono Mack, and our current colleague, 
Mr. Butterfield, extended that program in 2012, it has been a 
valuable tool for the Federal Trade Commission to cooperate 
with foreign enforcement agencies.
    So I appreciate that Mrs. McMorris Rodgers is leading this 
effort on the extension along with Ms. Kelly. And the way this 
program has served as such an important element of cooperation 
in dealing with online fraud and deception perhaps serves as a 
prelude to us doing another data privacy and protection bill 
that establishes strong uniform standards and protections. 
Maybe we can do that in the next hearing.
    The SAFE WEB Act program also clearly reaffirms the 
authority of the Federal Trade Commission, and that fact was 
reflected in our hearing with the agency earlier this year, 
which is that they know how to take on tough problems, and they 
do.
    As we have certainly learned in our efforts to fight 
robocalls this past year, a lot of harmful traffic we are 
dealing with is originating from beyond our borders. So we must 
act so we are not further inundated with spam and spyware meant 
to mislead us and even rob us.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Good afternoon, and welcome to our witnesses. I am very 
pleased that the Consumer Protection and Commerce Subcommittee 
is moving these initiatives forward today.
    While the Travel Promotion Act's funding authorization of 
Brand USA, as well as the U.S. SAFE WEB Act, do not expire 
until next year, I believe we are all familiar with the present 
challenges of successfully moving legislative priorities 
through both chambers in a timely fashion. This subcommittee 
can do great things for consumers, and I want to be optimistic 
that we can move these items as well as other priorities on 
autonomous vehicles and privacy also in a bipartisan manner 
soon.
    My friend Ms. Rodgers and myself will surely debate who has 
the better wineries in our neighboring States, but maybe we can 
agree a good way to solve the argument is if travelers from 
abroad come find out for themselves. The Bureau of Economic 
Analysis also reinforces our assessment of such benefits by 
reporting that foreign visitors account for a disproportionate 
amount of US travel and tourism spending.
    For those that might criticize the Brand USA program they 
should know it does not cost taxpayers one dime, so please 
direct your travelers out our way. I'd like to make them aware 
of not just our wineries and breweries, but also beautiful 
Crater Lake, the Painted Hills, the Pendleton Round-Up and our 
countless mountains, rivers and forests.
    I'm sure we all have similar stories, although certainly 
not as great of examples as I do, from our districts. That 
represents the true benefits of the Brand USA program, which is 
having travelers to our largest gateway cities gain awareness 
of all the wonders the rest of our lands have to offer. I thank 
Mr. Welch and Mr. Bilirakis in sponsoring this important 
extension. I'd also like to ask for unanimous consent that an 
op-ed by Jason Brandt, CEO of the Oregon Restaurant and Lodging 
Association, that appeared in the Hood River News be included 
in the record on the benefits of the program.
    Let me segue to another important element in our 
international relationships. Since the committee first created 
the SAFE WEB Act, and our former colleague Mary Bono Mack and 
our current colleague Mr. Butterfield extended the program in 
2012, it has been a valuable tool for the Federal Trade 
Commission to cooperate with foreign enforcement agencies. I 
appreciate that Ms. Rodgers is leading this effort on the 
extension, along with Ms. Kelly. The way this program has 
served as such an important element of cooperation in dealing 
with online fraud and deception perhaps serves as a prelude to 
us doing another data privacy and protection bill that 
establishes strong uniform standards and protections--perhaps 
we can do that for the next hearing?
    The SAFE WEB program also clearly reaffirms the authority 
the FTC has. That fact was reflected in our hearing with the 
agency earlier this year, which is that they know how to take 
on tough problems. As we have certainly learned in our efforts 
to fight robocalls this past year, a lot of harmful traffic we 
are dealing with is originating from beyond our borders, so we 
must act so we are not further inundated with spam and spyware 
meant to mislead us and even rob us.
    With that, I'd like to yield my remaining time to Mr. 
Bilirakis to relay opposing views on the need to visit the East 
Coast of our country.
    Thank you.

    Mr. Walden. With that, Madam Chair, I would like to yield 
my remaining time to the gentleman from Florida, Mr. Bilirakis, 
to relay opposing views on the need to visit the East Coast of 
the country.
    Mr. Bilirakis, the time is yours if you so choose to use 
it.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman. I want 
to thank you. You are a true statesmen. We are definitely going 
to miss you, Mr. Chairman. I appreciate you so very much.
    And we have the--Mr. Welch and I have probably the best 
darn title of all the legislation, I mean, there is no 
question, Brand USA. And it is a wonderful bill. And again, it 
is a no-brainer as far as I am concerned. But we have got to 
get it through the House and the Senate as soon as possible and 
get it to the President's desk.
    I want to thank the leadership on both sides of the 
committee for holding this hearing and for allowing me to wave 
onto the subcommittee to discuss the Brand USA program and the 
bipartisan bill I am coleading with my good friend and 
colleague Peter Welch, H.R. 3851.
    Brand USA is responsible for increasing international 
visits to the U.S. by 6.6 million since 2013 and generating 
$47.7 billion in economic impact, all at no cost to the 
taxpayer, I think the best public-private partnership that we 
have in this country. I previously worked on a bipartisan basis 
to reauthorize the program with Mr. Welch, and our bill this 
year will fix and extend the funding source for Brand USA 
through 2027.
    I want to thank our witnesses for testifying this 
afternoon. I look forward to hearing from all of you. And, 
again, I want to let you know that we have the number-one beach 
in the United States, Clearwater Beach, just outside----
    Mr. Walden. Reclaiming my time.
    Mr. Bilirakis. All right.
    Mr. Walden. We have a little ocean by our State, sir.
    Oh, look, we are out of time. I yield back.
    Ms. Schakowsky. The gentleman yields back.
    The Chair would like to remind Members that, pursuant to 
committee rules, all Members' written opening statements shall 
be made part of the record.
    And now I would like to introduce our witnesses at today's 
hearing. Mr. Christopher Thompson is the president and CEO of 
Brand USA. Ms. Tori Barnes is executive vice president of 
public affairs and policy for U.S. Travel Association. And Mr. 
Aaron Burstein is a partner at Wilkins Barker and Knauer.
    And we would like to thank all of our witnesses today for 
joining us. We look forward to hearing your testimony.
    At this time, the Chair will recognize each witness for 5 
minutes to provide an opening statement. Before we begin, I 
just want to make sure that everybody understands the lighting 
system here.
    In front of you is a series of lights. The light will be 
initially green at the start of your presentation, and the 
light will turn to yellow when there is 1 minute left, and 
please begin to wrap up at that time, and the light will turn 
red when your time has expired.
    So, Mr. Thompson, we welcome your presentation for 5 
minutes.

  STATEMENTS OF CHRISTOPHER L. THOMPSON, PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, BRAND USA; TORI EMERSON BARNES, EXECUTIVE 
    VICE PRESIDENT, PUBLIC AFFAIRS AND POLICY, U.S. TRAVEL 
  ASSOCIATION; AND AARON BURSTEIN, PARTNER, WILKINS0N BARKER 
                          KNAUER, LLP

              STATEMENT OF CHRISTOPHER L. THOMPSON

    Mr. Thompson. Chairwoman Schakowsky, Ranking Member 
McMorris Rodgers, members of the subcommittee, thank you for 
inviting me to testify before you today. It is a great 
privilege to represent Brand USA, the destination marketing 
organization for the United States. I would also like to thank 
each of you for your support on behalf of Brand USA, because 
this body has demonstrated overwhelming support publicly for 
the reauthorization of Brand USA.
    As you know, Brand USA is a public-private partnership 
established by the Travel Promotion Act in 2009 and 
reauthorized in 2014. Our mission is to increase incremental 
international visitation, spend, and market share to fuel our 
Nation's economy and to improve and enhance the image of the 
USA worldwide.
    Brand USA inspires visitors from around the globe to visit 
the USA and showcases amazing destinations, experiences, and 
culture, one that you can only experience in the United States 
of America. We directly influence consumers and companies in 
the travel industry across international markets and through a 
variety of platforms and campaigns.
    One example of this type of engagement is our innovative 
megafamiliarization tours. We refer to them as MegaFams. We 
recruit qualified travel agents and tour operators and create 
multistate itineraries that not only take them to, but through 
and beyond, our gateway cities, as was stated earlier. We 
provide education tools and firsthand knowledge so that they 
will need to sell those destinations when they are back in 
their hometowns.
    Since the first MegaFam in 2013, 1,000 international travel 
sellers have visited 50 States, Puerto Rico, U.S. Virgin 
Islands, and our District of Columbia. Participants enjoy 
experiences such as a tour of Chicago's Chess Records, the 
unique atmosphere of Black Bart's Steakhouse in Flagstaff, 
Arizona, and strolling the quaint parks of Newark, Delaware, 
among many other places.
    We do all of this because it works. According to Oxford 
Economics, since 2013 Brand USA's marketing efforts have 
generated 6.6 incremental international visitors. They spent 
21.8 billion incremental dollars. It has generated $6.2 billion 
in Federal, State, and local sales taxes. Overall economic 
impact is $47.7 billion, and nearly 52,000 jobs are supported 
on an annual basis.
    These positive impacts benefit and affect the entirety of 
the U.S. economy, well beyond the travel and tourism sector. 
Roughly 50 percent of the direct, indirect, and induced spend 
include good jobs, created and supported by multiple 
industries, including finance, insurance, real estate, business 
services, and manufacturing.
    Detailed information about our campaigns, our economic 
impact, and our return on investment is available for you and 
your staffs in the annual report for fiscal 2018 that was 
included and submitted for the record.
    Brand USA is more important than ever. The United States 
faces stiff competition in the global tourism marketplace due 
to factors such as a strong U.S. dollar, growing investment 
from competitor destinations, and the misperception among 
travelers that they already know everything that there is to do 
in the United States of America.
    To maintain our effectiveness and not lose ground in 
markets around the globe, Brand USA needs to be reauthorized 
now. While the current authorization does not expire until 
September 30 of 2020, destination marketing plans are developed 
at least 12 months out, prior to the deployment of marketing 
campaigns.
    This means that Brand USA is currently planning for 
campaigns that extend beyond the current fiscal year. We are 
already making decisions about expenditures such as market 
research, message testing, and digital asset deployment that 
lay the foundation for our fiscal 2021 campaigns.
    This type of long-term planning is the reason our results 
have been so positive over the last 6 years. But without 
clarity beyond September, it is difficult to justify these 
types of expenditures.
    At the same time, tour operators and travel media companies 
around the world are making their investment decisions for 
travel that will occur in the next year. Without confidence 
that Brand USA will continue to promote the USA to consumers, 
connect U.S. destinations and travel retailers and more, these 
companies are far less likely to make investments in selling 
the USA.
    This will have a particularly acute impact for U.S. 
destinations beyond the gateways, because international tour 
operators and travel companies take more risk when they sell 
the destinations beyond the gateways. The longer the wait, the 
longer the recovery time. This will lead to a reduction in jobs 
supported by international travel.
    Delays in reauthorization will also impact our partners, 
who are also already in their business cycle planning and 
counting on Brand USA's presence in these key markets around 
the world.
    When Brand USA is reauthorized, we will continue to inspire 
people from all across the globe who enjoy the unique 
experiences that they can only enjoy in our 50 States, the five 
territories, and our District of Columbia. Our efforts will 
continue to power the economy, increase revenues, and create 
jobs across the country.
    I thank you again for each of your individual support and 
for the opportunity to testify before you today. I am happy to 
answer any questions you may have. Thank you very much.
    [The prepared statement of Mr. Thompson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    [Two documents submitted by Mr. Thompson, ``Annual Report: 
Fiscal Year 2018, Brand USA'' and ``The Return on Investment of 
Brand USA Marketing: FY 2018,'' have been retained in committee 
files and also are available at https://docs.house.gov/
Committee/Calendar/ByEvent.aspx?EventID=110153.]
    Ms. Schakowsky. Thank you.
    And now, Ms. Barnes, you are recognized for 5 minutes.

                STATEMENT OF TORI EMERSON BARNES

    Ms. Barnes. Thank you. Chairwoman Schakowsky, Ranking 
Member McMorris Rodgers, members of the subcommittee, good 
afternoon. I am Tori Barnes, executive vice president of public 
affairs and policy for the U.S. Travel Association.
    I would like to thank the committee leadership, also 
Chairman Pallone and Ranking Member Walden, for prioritizing 
this critical issue, and I would also like to thank Congressman 
Welch and Congressman Bilirakis for leading this bill.
    Brand USA does all of this important work at no cost to 
U.S. taxpayers, and it is absolutely critical that Congress 
reauthorizes Brand USA this year.
    U.S. Travel is the only association that represents all 
sectors of the travel industry: hotels, airports, State and 
local tourism offices, car rental companies, theme parks and 
attractions, and many others. Our membership is diverse, but we 
are aligned behind a focused mission: to increase travel to and 
within the United States.
    In 2018, spending by nearly 80 million international 
visitors to the U.S. produced $256 billion in export income for 
the American economy. Overseas visitors spend approximately 
$4,200 per trip and stay an average of 18 days, spending money 
on hotels and transportation, as well as in restaurants, retail 
establishments, and more. And 74 percent of these visitors 
leave with a more favorable view of the United States.
    Travel is the seventh-largest industry in terms of 
employment, and international visitor spending is essential to 
growing the economy and the American workforce. But the United 
States is rapidly losing its share of the global travel market, 
falling 2 percent since 2015. That decline represents a 
difference of 14 million visitors and a hit to the economy of 
about $60 billion in spending and 120,000 American jobs. If 
nothing is done, our market share will continue to erode and is 
projected to fall below 11 percent by 2021.
    This is why it is crucial for Congress to reauthorize Brand 
USA this year. If Brand USA were eliminated, the United States 
would be the only top 20 country destination without a national 
travel promotion budget. Brand USA's proven effectiveness is 
jeopardized by uncertainty over its future. Budgets need to be 
written and campaigns need to be planned, none of which can 
effectively be done unless Brand USA is reauthorized now.
    Quite simply, this is a program that works. Brand USA keeps 
the United States competitive in the global race to attract 
visitors and prevents the decline in market share from being 
worse.
    Over the past 6 years, Brand USA's marketing has brought 
6.6 million international visitors to the United States, who 
created $47.7 billion in economic impact.
    Brand USA brings these visitors through and beyond the U.S. 
gateway cities, ensuring all pockets of America reap the 
economic benefits of international inbound travel. Some of 
these partnerships around the country include Meet Atlantic 
City in New Jersey, Visit Spokane in Washington, Choose 
Chicago, and Travel Oregon.
    Brand USA is also essential to improving the U.S. trade 
balance. Travel is America's second-largest export. While the 
overall U.S. economy ran a trade deficit in 2018, U.S. travel 
exports generated a $69 billion trade surplus. Without this 
surplus, the United States' overall trade deficit would have 
been 11 percent higher.
    It must be noted that Brand USA does not cost American 
taxpayers a dime. Other countries with whom we directly compete 
for tourism dollars, have large taxpayer-funded promotion 
budgets, but Brand USA instead is funded through a small fee 
charged to international visitors approved for travel here 
under the Visa Waiver Program, plus matching contributions from 
the American private sector.
    Earlier this year, more than 600 travel industry 
organizations representing all 50 States signed a letter in 
support of Brand USA to Speaker Pelosi and Leader McCarthy. And 
of course, Brand USA was reauthorized once, in 2014, with 
overwhelming bipartisan support.
    The time is now. The future of the United States' ability 
to welcome and attract international visitors as one collective 
voice and the health of the overall economy depend on it.
    I would like to thank once again the committee for 
recognizing the critical need to reauthorize Brand USA as soon 
as possible. We look forward to working with you to secure the 
future of this valuable program, and I look forward to your 
questions.
    [The prepared statement of Ms. Barnes follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
       
    Ms. Schakowsky. Thank you.
    Mr. Burstein, you are recognized for 5 minutes.

                  STATEMENT OF AARON BURSTEIN

    Mr. Burstein. Thank you. Chairwoman Schakowsky, Ranking 
Member McMorris Rodgers, and members of the subcommittee, thank 
you for the opportunity to testify today. My name is Aaron 
Burstein, and I am a partner at Wilkinson Barker Knauer in 
Washington, DC.
    Before joining Wilkinson Barker in 2016, I was a legal 
adviser on consumer protection matters to former FTC 
Commissioner Julie Brill. My perspective on the U.S. SAFE WEB 
Act is informed by my experiences at the FTC and in private 
practice. However, my testimony represents only my own views 
and not those of Wilkinson Barker or any of its clients.
    The SAFE WEB Act provides the FTC with important tools to 
protect U.S. consumers and enforce standards that responsible 
companies strive to meet. It bolsters the FTC's ability to work 
with its foreign counterparts and supports the FTC's 
international leadership and standing.
    Reauthorizing SAFE WEB would keep these essential tools in 
place and send a strong signal of support for the FTC's 
consumer protection mission and its role as an international 
leader in this arena.
    I support reauthorization through H.R. 4779, which would 
leave unchanged the core provisions of the SAFE WEB Act that 
were enacted in 2006 and reauthorized in 2012. I would like to 
highlight a few of the benefits of those provisions.
    First, SAFE WEB provides the FTC with a clear grant of 
extraterritorial authority. A core purpose of SAFE WEB is to 
help protect U.S. consumers from cross-border scams and fraud 
in a globalized and networked world.
    Consistent with this purpose, SAFE WEB expressly allows the 
FTC to prosecute overseas conduct that foreseeably harms 
American consumers. The act also expressly allows the FTC to 
take action against companies that operate in the U.S. and 
cause harm overseas.
    Second, SAFE WEB has allowed the FTC to build an impressive 
record of assisting its foreign counterparts in their 
investigations. As we heard, according to FTC data from March 
2019, the FTC has issued more than 115 administrative subpoenas 
and responded to more than 130 information-sharing requests 
under SAFE WEB.
    SAFE WEB requires the FTC to carefully evaluate these 
assistance requests under a variety of factors. For example, 
the FTC has to consider whether the requesting agency will 
reciprocate when the FTC makes its own requests. This helps to 
ensure that assistance is done carefully and is not a one-way 
street.
    This leads me to a third benefit of the SAFE WEB Act, which 
is the meaningful assistance the FTC obtains from foreign law 
enforcement agencies. In the past few years, the FTC has 
credited the act with securing assistance and cooperation in 
cases involving large-scale data breaches, children's privacy 
violations, and a sweepstakes scam that led the FTC to recover 
over $30 million.
    Finally, the SAFE WEB Act helps the FTC build relationships 
with foreign law enforcement agencies through staff exchanges. 
The officials the FTC hosts as international fellows or interns 
return to their home countries with a better understanding of 
the laws the FTC enforces, how it conducts investigations, and 
how it operates as an agency.
    These visitors also develop personal contacts within the 
agency, and these relationships can bolster trust, promote 
future enforcement cooperation, and facilitate communications 
between the FTC and its counterparts.
    All of these outcomes benefit U.S. companies and consumers.
    In conclusion, the FTC has used its SAFE WEB Act 
effectively in its own investigations and to assist its 
counterparts abroad.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Burstein follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
       
    Ms. Schakowsky. Thank you so much.
    We have concluded now witness opening statements. At this 
time, we will move to Member questions. Each Member will have 5 
minutes to ask questions of our witnesses, and I am going to 
start by recognizing myself for 5 minutes.
    You are going to hear a lot of touting of our hometowns, 
and that is all to the good.
    For the third consecutive year, Conde Nast Traveler has 
voted--the readers have voted Chicago as the, quote, ``best 
large city in the U.S. to visit,'' unquote. Pace Magazine 
praises Chicago's theater as, quote, ``one of the most thriving 
theater scenes on the planet,'' unquote. And Bon Appetit 
magazine has dubbed Chicago as ``America's most exciting city 
to eat in right now,'' unquote. And of course, Chicago is also 
home to the largest science museum in the Western Hemisphere, 
champion sports teams, and the famous Art Institute of Chicago.
    I have to express one gripe, however. Yesterday my city was 
maligned to some extent. The President of the United States was 
there, and Chicago, he said, quote, ``is embarrassing to us as 
a Nation,'' unquote, and that, quote, ``Afghanistan is a safer 
place by comparison than Chicago.'' Not helpful.
    But I wanted to ask you, Mr. Thompson, Chicago has a 
thriving tourism market, despite some other comments, and 
everything is in place to support even more tourism. How can 
Chicago specifically benefit from its partnership with Brand 
USA? We do have Choose Chicago--as I think you mentioned, Ms. 
Barnes, or one of you--that partners with Brand USA. But what 
recommendations do you have for cities in general to maximize 
the tourism?
    Mr. Thompson. So, Madam Chairwoman, this might be the 
answer to each and every one of your similar questions about 
your respective hometowns.
    The foundation of our marketing and promotion efforts 
really promote--and by law we are required to promote--the 
entirety of the USA, all 50 States, five territories, and the 
District of Columbia. So our marketing promotion campaigns 
through our own assets do that.
    But I am happy to report that both Choose Chicago and the 
Illinois Office of Tourism are some of our most active 
partners. So, beyond our foundational marketing campaigns, we 
have cooperative marketing across many channels, mostly on the 
digital platforms and in the social media, and both of those 
organizations, on behalf of the city and the State, have been 
very, very active.
    I don't have to tell their stories because on my best day I 
couldn't tell it as well as they could do. What we have to do 
is find ways to magnify their stories, and that is the way that 
we add value to what is being done at the local and State 
level.
    So I am proud to say that I am not sure what else more they 
can do other than what they have been doing, and it is our job 
to continue to bring forward programs and marketing 
opportunities that they see value in.
    Ms. Schakowsky. Thank you.
    So people from all over the world are visiting the United 
States, and today the top five countries for international 
tourism to the U.S. are Canada, Mexico, the United Kingdom, 
Japan, and China. However, there are certain countries where 
you probably see tremendous potential, even more than tourists 
right now who are visiting the U.S.
    So, Mr. Thompson, what are some countries that you view as 
emerging markets for inbound tourism to the United States?
    Mr. Thompson. Well, you mentioned four of our most stable 
markets, the two we share a border with and the U.K. and Japan. 
China is a market that has climbed the top 10 in a rapid pace. 
It is the largest outbound tourism market in the world, 140 
million Chinese travel outside the borders every year. The U.S. 
is the most aspirational destination for our Chinese visitors.
    So as lift improves, as access improves, our job is to 
continue to tell the stories that they actually know, which are 
many of the gateway cities and opportunities through those 
gateways, and more importantly, what they don't know, because 
they are very curious visitors and we expect them to grow in 
numbers.
    Ms. Schakowsky. And I assume you are trying to promote 
that.
    Mr. Thompson. Oh, absolutely. We have four offices in 
China.
    Ms. Schakowsky. Great.
    I now yield to the gentleman, Mr. Bucshon, who is the 
acting vice chair of this committee right now.
    Mr. Bucshon. Well, thank you very much.
    In a digital age where the world is simply a click away, 
bad actors often try to take advantage of international borders 
to defraud consumers. We should ensure that the FTC has the 
tools to work with international law enforcement to bring these 
bad actors to justice.
    That is why I am proud to colead the U.S. SAFE WEB 
Extension Act with Ranking Member McMorris Rodgers, Chairwoman 
Schakowsky, and Congresswoman Kelly, which reauthorizes the 
U.S. SAFE WEB Act of 2006.
    Mr. Burstein, you mentioned that the core purpose of the 
SAFE WEB Act was to affirm the FTC extraterritorial authority. 
Can you provide examples of how the foreseeable and materiality 
standard has protected consumers in the United States?
    Mr. Burstein. Certainly. This aspect of the SAFE WEB Act 
has come up in a couple of recent cases. And just to set the 
frame in a little bit larger perspective, part of the concern 
that would arise from the expiration of SAFE WEB Act authority 
is that, without that express authority in place, FTC 
defendants might have greater incentive to litigate the FTC's 
jurisdiction over them. So having it in place makes bringing 
cases a little bit easier for the FTC.
    That has come up in a couple of cases recently. One example 
would be the case against Triangle Media, which involved an 
operation that had a foreign component. Some of it was based in 
Bulgaria. And part of the defense against the FTC's action on 
the part of one of the defendants was that those operations 
were walled-off foreign channels entirely. The FTC presented 
evidence that that wasn't the case and that there was a 
material connection of sorts to the U.S. and was able to defeat 
that defense.
    Mr. Bucshon. Sounds great.
    Mr. Thompson, Indiana offers many great experiences for 
tourists, such as a chance to ride in the Spirit of Jasper 
Train, engulf themselves in the holidays in Santa Claus, 
Indiana.
    By the way, if you have children and they send a letter to 
Santa Claus, Santa Claus, Indiana, 47579, you will get a 
personal response. They have a whole team of people that work 
with Santa Claus to respond back to every letter, just so you 
know. And if you send a box of Christmas cards, which we get 
from all over the world, they will be personally stamped with a 
stamp in Santa Claus, Indiana, with a logo that is designed by 
local schoolchildren every year. So I just want to put that 
plug in.
    By the way, I love Chicago. I went to med school in 
Chicago. My son lives there.
    Ms. Schakowsky. And I have a house in Indiana.
    Mr. Bucshon. But in all seriousness, Mr. Thompson, can you 
expand on how Brand USA works with States like Indiana to help 
promote tourism?
    Mr. Thompson. Congressman, as I said earlier, I don't have 
to tell the Indiana story because, as you well do and as they 
do at the State office, they tell the story very well. But when 
we are able to take some of our dollars, match them with their 
dollars, and in many cases, we have city-State pairings, where 
the cities will actually partner with the States, then you take 
one plus one plus one, equaling four and five and six, so that 
we are all able to leverage our resources beyond what we would 
be able to do on our own. And I know in many cases that has 
proved to be very successful for many of the States.
    Mr. Bucshon. Great.
    In my remaining time, Mr. Burstein, can you describe how 
the SAFE WEB Act provides accountability measures for both the 
Commission and foreign law enforcement agencies?
    Mr. Burstein. I think one of the key features of SAFE WEB 
along those lines is that, when the FTC provides information to 
a foreign law enforcement agency, it requires certain 
certifications that the receiving agency will use it only for 
appropriate law enforcement purposes and will provide 
confidentiality protections. And those obligations also apply 
to information that the FTC receives from its overseas 
counterparts.
    Mr. Bucshon. Great. I appreciate that.
    And by the way, you can also hike in Hoosier National 
Forest. I just wanted to throw that in.
    With that, Madam Chairwoman, I yield back.
    Ms. Schakowsky. The gentleman yields back.
    And I now recognize Congresswoman Castor for 5 minutes.
    Ms. Castor. Well, thank you, Madam Chair, for organizing 
this hearing.
    Thanks to our witnesses today.
    I want to thank my good friends and colleagues Peter Welch 
and Gus Bilirakis for moving this bill. I am very pleased to be 
a cosponsor.
    Brand USA is working, and we really need to move this bill 
out of committee expeditiously and get it passed. I hear all of 
the reasons why that you have categorized for us. But it is so 
important in this big, diverse country that we have a focal 
point like Brand USA that can combine efforts and be as 
efficient as possible with the dollars--not the tax dollars, 
but the foreign dollars that come to help organize private-
sector business partners with our public institutions and come 
up with a strategy to market all of the beautiful places and 
destinations across the United States.
    And this is who we are in the State of Florida. The Tampa 
Bay area, we are the hip urban heart of Florida's Gulf Coast. 
The hospitality there is as warm as the weather. Gus Bilirakis 
is absolutely right. Let the record reflect that the beaches of 
the Gulf Coast are the best in the world. In fact, Dr. Beach, 
when he announced the best beaches of 2019 this year, Florida 
was the only State with 2 of those beaches in the top 10, but 
they are all fabulous. I know Congressman Soto is going to 
second that motion.
    But I am concerned that the international traveler numbers 
are--I think, Ms. Barnes, you said the market has been falling 
since 2014, 2 percent, down 2 percent. That is what we see in 
the State of Florida, a lot of domestic travelers that--we love 
them. They all come to Florida to enjoy their vacations. But we 
want the international travelers back. They are important to 
us. As you said, they spend more money. They often stay longer.
    What are the trends? Mr. Thompson, you know the State of 
Florida very well, and I appreciate all of your years of 
service to our State. What is going on, Mr. Thompson, Ms. 
Barnes, on the international traveler numbers? What should we 
understand so that we can make sure that we are doing 
everything to attract those visitors?
    Mr. Thompson. Congresswoman, I was going to say, you know 
my home State is Florida, and I have a long track record with 
Visit Florida, so I know much of what you were saying about 
your area very well.
    I will say that, although the numbers have slowed, the near 
80 million visitors in 2018 and the over a quarter-trillion 
dollars in spend were record numbers. So we are still seeing 
increased visitation, just at a slower pace.
    You know, much of the reason why things slow has as much to 
do with the strength of the dollar, has much to do with, as I 
said earlier, competing destinations, and a lot to do with what 
people are feeling and experiencing back in their points of 
origin.
    So we have consumer sentiment that we track in 10 markets 
every month, so we have a good pulse about what people are 
thinking and what their intent to travel to the United States 
is in the next couple years, and we use that to inform a lot of 
our decisions.
    And I would say that is really the urgency of our request 
to be reauthorized now as opposed to later is a lot of our 
success that we have had over the last 6 years has really been 
dependent on that ability to plan 12 to 18 months out and to 
have the resources that informs those decisions so that we can 
stay on top of any issues that might be affecting people's 
ability or intent to travel.
    Ms. Barnes. And thank you for the question.
    I think I would add to that as well that we are seeing this 
global travel boom. Global travel is up about 5 to 7 percent. 
So, as Mr. Thompson noted, we are still continuing to see 
growth here in the U.S., but it could be that much more. We are 
losing the market share, really. Countries like Spain and 
Australia and Canada are beating us at this game, or have the 
potential to beat us at this game if we don't have Brand USA.
    So Brand USA, we think, is really what sustained this 
continued growth, and the urgency, as Mr. Thompson mentioned, 
is really around that certainty moving forward.
    As I noted in my opening statement, if Brand USA were to go 
away the U.S. would be the only 1 of the top 20 destinations to 
have no organized marketing arm, and that would be a real 
detriment to the economy. And quite frankly, because 74 percent 
of folks leave the U.S. with a more favorable view, it would 
also be a negative diplomatic impact as well.
    Ms. Castor. Well, thank you very much.
    And I imagine, Mr. Bucshon, if the U.S. Travel Association 
and Brand USA was going to write to Santa Claus, they would 
probably ask for swift passage of this bill out of committee 
and the floor, but also probably for all of us to get busy on 
an infrastructure package to help repair our airports, our 
roads, and make travel around the United States of America a 
little more pleasurable.
    So thank you very much. I yield back.
    Ms. Schakowsky. The gentlelady yields back.
    And now I recognize Mr. Latta for 5 minutes.
    Mr. Latta. Well, thank you very much, Madam Chair.
    And to our witnesses, thanks very much for being here.
    Before I do start, I would like to tell my good friend, the 
gentleman from Indiana, that I happen to have Rudolph, Ohio. 
And every year at Rudolph, they have tens of thousands of 
letters that come in that they will stamp with their famous 
Rudolph the Red-Nosed Reindeer postmark, so you can have that 
done in my district.
    So thank you very much again, Madam Chair, and thanks again 
to our witnesses. The first bill we are hearing in this 
legislative hearing today is H.R. 3851, would reauthorize the 
Brand USA program so that public and private resources will 
continue to be leveraged to promote the United States as a 
tourist attraction for international visitors.
    According to Ohio tourism, 46 million people came to Ohio 
in 2017, spending $19 billion and contributing $3.1 billion in 
tax revenue. Ohio has been my home for my entire life, and I 
believe it has much to offer to our visitors from inside the 
United States and from around the globe who are looking for new 
and memorable travel experiences.
    For example, every year in my hometown of Bowling Green, we 
host the National Tractor Pulling Championships, which draws 
thousands of visitors to Bowling Green from all over the 
country and the world for a 3-day event, and it also ends up 
contributing greatly to our local economy.
    In addition to events like the tractor pull, northwest Ohio 
welcomes millions of visitors to the world-class Toledo Zoo and 
Aquarium, Lake Erie shores, the historic Sauder Village, sports 
teams like the Toledo Mud Hens, the roller coaster capital of 
the world at Cedar Point, and the internationally renowned 
Toledo Museum of Art.
    I have heard from local business leaders that Brand USA has 
helped bring visitors to see these attractions and patronize 
local restaurants, hotels, and shops. Because of the positive 
economic benefits of this program--which doesn't, again, cost 
the taxpayer a dime--I am supporting its reauthorization.
    And, Ms. Barnes, if I could start my questions with you. In 
your testimony, you speak of bringing visitors to parts of the 
United States beyond those gateway cities. As I said earlier, 
we have a lot to offer in Ohio. What is Brand USA doing to 
promote the Midwest and the Great Lakes States as a tourist 
destination for international visitors?
    Ms. Barnes. Thank you.
    So I think Mr. Thompson can probably best answer this 
question, but I would note that part of Brand USA's 
requirements are that they actually go well beyond the gateways 
and help to promote all of the U.S.
    So I know that they are doing a lot of good work in Ohio. I 
was recently there for a big travel event, and your State was 
wonderful, a wonderful host. So if I may, Mr. Thompson might be 
able to best address this specific region.
    Mr. Latta. And also, Mr. Thompson, if you could also talk 
about some of the indirect impacts that the Brand USA has on 
our local economies back home along with that.
    Mr. Thompson. Congressman, I appreciate your comments. As I 
listen to all of you promoting your destinations, we have a 
campaign called Ask a Local, and we always say that you can 
know the heart and soul of a community if you know what the 
locals know. So I think if I just take this recording and send 
it out, you know, you guys are as good promoters as any of us.
    So I would reinforce what we said earlier as far as our 
core campaigns, which is our own assets that we promote through 
12 major markets around the world, promote the entirety of the 
United States, 50 States, five territories, and the District of 
Columbia.
    We layer in on top of that some streamed marketing 
campaigns. And I know, for example, we have a campaign that 
recently launched called United Storage, where we are sending 
content creation labs, real-time content creation labs, around 
the United States. And that campaign recently visited Cleveland 
and focused on what Cleveland has to offer and pushed it out on 
digital and social and other marketing platforms.
    I would also remind everyone that included in our testimony 
on the record is our annual report for 2018, and most every--
all of the accountability that we have as it relates to the 
overall promotion and what we might have done in specific 
destinations is listed in there. So I don't have all of that 
committed to memory and certainly would refer to that as a 
resource to be able to do, and happy to provide after the fact 
any more detail.
    Mr. Latta. Well, thank you very much.
    Madam Chair, I will yield back the balance of my time.
    Ms. Schakowsky. Would you want to ask permission to put 
that in the record, what was just mentioned by Mr. Thompson?
    Mr. Latta. Absolutely.
    Ms. Schakowsky. So ordered.
    Mr. Latta. Ask unanimous consent.
    Ms. Schakowsky. So ordered.
    Ms. Schakowsky. And now Mr. O'Halleran is recognized for 5 
minutes.
    Mr. O'Halleran. Thank you, Madam Chairwoman.
    I am not going to start off with a long list of shameless 
promotions that the other districts have talked about. I am 
sorry. I am going to go back to where I started. I wanted to 
get that in early.
    I am glad that we are here having serious discussions about 
reauthorizing two very important pieces of legislation, and I 
want to thank the witnesses for their time today.
    First, I am proud to be a cosponsor of the legislation that 
would reauthorize Brand USA. It is critical that we pass this 
legislation by the end of the year to ensure that its operation 
and partnerships can continue well into the future.
    Brand USA has tremendous impacts on the First District of 
Arizona. We attract tourists from all over the world, millions 
of them. In 2018, domestic and international travel to my 
district generated $2.5 billion in economic impact and 
supported over 18,000 jobs. That is a pretty good return by 
brand on investment, I would think. The travel industry is the 
fourth-largest employer, and there may be partnerships between 
Brand USA and organizations in my district.
    Now getting back to the important issue of bragging about 
our districts. I would like to have anybody want to come out to 
the district that is larger than the State of Illinois. I grew 
up in Illinois, but----
    Ms. Schakowsky. A little respect.
    Mr. O'Halleran. Yes. I am sorry. But come to the Colorado 
Plateau or any of the 22 national parks and monuments, the Salt 
River Canyon, all of the wonderful water lands that we have 
that are contained in the 6 national forests that are within 
the district, Lake Powell, the 12 Native American Tribes in the 
district, heritage of the southwestern United States, and I 
almost forgot the Grand Canyon and Sedona, which are close to 
my heart also.
    Thank you very much. I yield.
    Ms. Schakowsky. The gentleman yields back.
    And next is Mr. Guthrie, who is now the----
    Mr. Guthrie. Acting ranking member.
    Ms. Schakowsky [continuing]. Acting ranking member.
    Mr. Guthrie. Thank you very much. I appreciate it very 
much.
    And we were talking earlier, I have got to go through my 
list. The Bluegrass Museum in Owensboro--you did a video 
there--which is the birthplace of one of America's forms of 
music, totally American, was born right next to my district, 
used to be my district, Jerusalem Ridge, with Bill Monroe.
    Abraham Lincoln. I know my friend from Illinois claims 
Abraham Lincoln. That is where he became an adult, but he was 
formed on the hardscrabble land of Kentucky, born, and then 
Hardin County and now LaRue County. Drank his first drink of 
water out of Sinking Creek. And then he learned his chores as a 
boy at the boyhood home that you can visit in Hardin.
    In LaRue County, Kentucky, Mammoth Cave National Park, one 
of the great cave systems of the world, is right near where I 
live. Unfortunately, we have new caves open up. We try to keep 
our water away from our houses so we don't become part of 
Mammoth Cave where we live.
    And then all the scenic rivers and small towns, of course 
the gold vault at Fort Knox, which you can only see from the 
road, but you can see it just like the movie ``Goldfinger.''
    And as I got to know Ms. Barnes when I first came to town, 
she used to represent another business that manufactures the 
great American sports car, Corvettes, in my hometown of Bowling 
Green. So if you bring a little cash, you can drive a Corvette 
away from my home district. They are worth every penny of it, 
that is what they are. So moving forward.
    But I want to get to a couple of questions, one for Mr. 
Thompson and Ms. Barnes. And my friend was talking about her 
great city of Chicago, and I agree, it is a great city, and I 
love the great museums and so forth. But we want people 
sometimes to get out of the big cities and see Kentucky and see 
other areas off the beaten path because, you know, when we go 
to some of those countries overseas in Europe, you want to see 
the great cities and the great cathedrals and things. But 
sometimes when you find that little surprising little town if 
you get off the beaten path, it really is what you come back 
and talk about.
    And so what kind of systems or things does Brand USA do to 
try to get people out of the gateway cities--which I am not 
dismissing them at all--but into the places like the Bourbon 
Trail and the bluegrass and things like that?
    Mr. Thompson. So, Congressman, aside from the plateau or 
the foundation of promotion that as a result of the internet 
and through our own channels promotes the entirety of the 
United States, we actually--through our campaigns that are 
otherwise cooperative marketing--we actually do a very 
calculated effort to make sure that we are covering the 
entirety of the United States.
    For example, you mentioned the Hear the Music campaign for 
Owensboro, Kentucky. I think a lot of people would not have 
known that Owensboro, Kentucky, was the home to Bluegrass Music 
Museum and the Hall of Fame there. And I think that is a great 
example. Of all the participants in that campaign, that 
Owensboro, Kentucky, video is actually indexing as high as any.
    Mr. Guthrie. That is great.
    Mr. Thompson. So that just goes to prove that many of our 
visitors know our gateway cities, they are familiar with our 
gateway cities.
    And I think that is the strength of the USA as a 
destination, that in times when people might be challenged, 
even with the U.S. dollar, that we have a variety of options 
even around gateways that give people tremendous opportunity so 
that they can change their travel plans and actually stay in 
and around the gateway, and within 4 or 5 hours of a gateway 
there are things that they have no idea that existed. So we 
take very seriously the charge of promoting beyond the 
gateways.
    Mr. Guthrie. Thanks.
    Ms. Barnes. And I would just add that the average 
international traveler spends about $4,200 when they come to 
the U.S. Travelers from China might spend upwards of $7,000. 
So, as Mr. Thompson noted, when they are staying in and around 
a gateway city, they also stay, on average, for 18 days, and so 
that allows for them to go and experience different 
opportunities.
    And I think one of the things that Brand USA has really 
done well, to highlight lately, in particular, is the desire of 
the traveler to participate in the authentic American 
experience, which obviously goes well beyond just our cities 
but to destinations within rural and suburban areas alike. So 
those international dollars are such a huge benefit to the 
economy. And when those folks come here and stay for that long 
period of time, it really helps them to experience the real 
America.
    Mr. Guthrie. Thank you.
    And I will transition. I know that you say a lot of it is 
through internet trafficking--or internet traffic, and so I 
wanted to talk to Mr. Burstein about the SAFE WEB Act. So we 
have another bill before us. It provides the Federal Trade 
Commission--so can you explain what tools the USA SAFE WEB Act 
provides the FTC that it would not otherwise have, and how does 
it use the tools?
    Mr. Burstein. Sure. Just briefly, there are four main areas 
of tools that SAFE WEB Act provides. First is a clear grant of 
authority to go after frauds and other types of consumer 
protection harms that occur overseas. The second is the ability 
to assist foreign law enforcement investigations that may 
involve conduct in the United States or that harm consumers in 
the U.S. The third is that the FTC can share information that 
it would otherwise be required to keep confidential or be 
prevented from sharing with foreign law enforcement partners. 
And then the fourth is that it allows for staff exchanges 
primarily so that foreign law enforcement officials can come to 
the U.S., get better acquainted with the FTC, build strong 
relationships, and provide a stronger foundation for future 
cooperation.
    Mr. Guthrie. Thank you.
    My time has expired. I yield back.
    Ms. Schakowsky. I didn't hear you say that when Mr. Welch 
brings ice cream, that you would provide a bourbon chaser. I 
was listening for that.
    Voice. Now you are talking.
    Ms. Schakowsky. Yes, yes.
    Mr. Guthrie. I want the maple syrup.
    Ms. Schakowsky. And, Congressman Kelly, you are recognized 
for 5 minutes.
    Ms. Kelly. Thank you so much, Madam Chair.
    I just want to remind my colleague from Kentucky that, yes, 
Lincoln was born in Kentucky, but his library is in--his museum 
is in Springfield, Illinois. But I do agree with him, as far as 
the big city. My district is urban, suburban, and rural, and 
most is out of Chicago, and I want to make sure that we do as 
much for those areas. And we do have--the chairwoman talked 
about all the virtues of Chicago, so I won't double down, but 
we have Olympia Fields Country Club, which is in the top 50 in 
the country, where the PGA has visited, and I am very proud 
that that is in my district. So we want them to keep on coming. 
So--and thank you for your testimony.
    I did want to turn to the SAFE WEB Act. Can you talk about 
what are some examples of how the U.S. and Canada have 
cooperated to the benefit of American consumers, since they 
modeled legislation after the SAFE WEB Act?
    Mr. Burstein. Sure. The FTC has cited cooperation with a 
variety of Canadian law enforcement agencies as being helpful 
in FTC investigations. Some of the places that that has come up 
recently include a children's privacy case involving the 
company V-Tech, that sold connected toys, wasn't obtaining--
allegedly, wasn't obtaining--appropriate consent to collect 
information from children. The FTC apparently worked with the 
Canadian Office of the Privacy Commissioner, which conducted 
its own investigation and released its own findings.
    Also, another recent case involving Canadian assistance or 
cooperation was the Ashley Madison case, a breach of a dating 
website, involving millions of users of that site. There were 
reportedly users in some 46 countries, including Canada, and 
again, the FTC had obtained assistance from Canada to collect 
evidence in that case.
    Ms. Kelly. So when you talk about the U.S. SAFE WEB Act, it 
doesn't just protect consumers from traditional cases of fraud 
and deception, but as you said, also threats to privacy and 
children's privacy also?
    Mr. Burstein. That is correct.
    Ms. Kelly. And then also, can you discuss some of the types 
of cross-border fraud against U.S. consumers that you see 
originating from different countries? And are there some 
countries that are tougher to deal with or we see more fraud 
originating from?
    Mr. Burstein. From outside the FTC, which is where I 
currently sit, it is a little bit hard to really get a lot of 
insight into where specific things are coming from or where 
large trends come from. But, certainly, based on the cases the 
FTC brings, as well as some of what I hear in my practice 
currently, things like tech support scams remain a very large 
problem. I certainly hear from my father that he receives ads 
or popups indicating that he has some sort of problem and needs 
to employ the services of the company behind the advertiser. 
Those often have a cross-border component to them. And then 
also, things like even U.S.-mail-based scams promoting prizes 
that may not really exist as well as sweepstakes and those 
sorts of schemes can involve actors residing overseas or moving 
money around and keeping assets offshore.
    So those are all things that SAFE WEB gives the FTC the 
authority to work with foreign law enforcement agencies to 
investigate as well as to prosecute, if it is appropriate, the 
parties that are involved in the conduct.
    Ms. Kelly. Do you think there are certain groups that 
these, whoever, go after more than others, or is it equal 
across the board, or is it like seniors or children?
    Mr. Burstein. That is a great question. You know, these 
schemes can affect anyone. One of the recent cases that the FTC 
brought that involved SAFE WEB powers did involve, I believe, 
targeting of elderly consumers. So there certainly are 
vulnerable categories of consumers who can be targeted.
    Ms. Kelly. Thank you.
    And I want to yield some of my time to my colleague from 
Arizona.
    Mr. O'Halleran. I thank you.
    Just wanted to make a correction. It is the Colorado River, 
not Plateau. And it is the Coconino Plateau, and I should have 
fixed that in my notes. Thank you very much.
    And I yield.
    Ms. Schakowsky. We will get that correction in the record 
now.
    Who is it? Oh, Mr. Walden is back.
    Mr. Walden. I am back.
    Ms. Schakowsky. And I welcome your questioning for 5 
minutes.
    Mr. Walden. Thank you. Thank you, Madam Chair. And thanks 
again to our panel.
    Ms. Barnes, you got some explaining to do. Can you explain 
how Brand USA helps drive international visitors to parts of 
Oregon they may not otherwise hear about? I stayed up all night 
working on that one. And then I am going to ask you about 
whether you think Oregon wine is better than, say, Washington 
wine--but, no, I won't put you in that spot. Because we know 
the answer.
    Ms. Barnes. Thank you for the question, and the Oregon wine 
is quite good. I like that, thank you.
    You know, Brand USA really goes well beyond the gateways in 
their efforts, in what they do to market all of the United 
States as they are working throughout the world. And I think, 
as I noted previously, we have the opportunity here to really 
increase our market share. We are losing out to other countries 
that are doing a lot to try to gain the travelers that would 
otherwise come here. And without Brand USA we really would be 
hamstrung. We would be, without Brand USA, one of the top--the 
only one of the top 20 destinations that has no marketing arm. 
So reauthorization is critical. But Mr. Thompson probably can 
get more specific on exactly what is happening in Oregon.
    Mr. Walden. Thank you.
    Mr. Thompson. So, Congressman, as I said before, by law we 
are required to promote all 50 States, five territories, the 
District of Columbia, not only to, but through and beyond the 
gateways, and we are also, by law, responsible for promoting 
both urban and rural destinations. With that kind of charge and 
a lot of it being focused on geography, we don't really focus 
on geography. We focus on lifestyle interests. So in doing 
that, and particularly in your case, as you were referencing, 
people that are coming for a wine experience, certainly Oregon 
has a great opportunity to tell a great story about the wine 
experience that can be had there. And so on those platforms, 
where that storytelling is being told, Oregon is a prominent 
part of the story.
    Mr. Walden. Yep. And we got great breweries too. It is not 
just about the alcohol, but we have great food too and farm-to-
table. It is really pretty cool what is happening in sort of 
the ecoterrorism world--ecoterrorism--ecotourism world. Yes, 
the other is not really cool. But ecotourism world. We see that 
a lot too and everything else out there.
    Mr. Burstein, robocalls, I know the FTC has been involved 
in a lot of different international cooperation issues and all, 
and I am just curious, this committee, at its larger level, has 
done a lot of work together in a bipartisan way to try and shut 
down these illegal calls that are often made from overseas. 
What guidance can you give us? What impact do you see? What can 
we do more to lessen the burden of these things?
    Mr. Burstein. Well, as far as robocalls specifically go, I 
don't have any recommendations right now, except to point to 
the SAFE WEB Act and what it does generally for the FTC's 
ability to cooperate with international partners.
    Mr. Walden. Yes.
    Mr. Burstein. All of the tools that it provides are useful 
with respect to international robocall schemes, whether it is 
working with law enforcement agencies abroad, getting 
information from them or, you know, helping them obtain 
evidence from the United States that might be useful to shut 
down operations.
    Mr. Walden. Yes, I guess that is kind of what I am looking 
for, is how do we build on those international partnerships. 
Because what we find is this stuff doesn't stop at the water's 
edge, it keeps going. And I know there are scams in the hotel 
lodging industry as well where there are third-party operators 
alleging to be XYZ Hotel, and turns out it was a total fraud, 
and the guest shows up and--I actually was at a hotel in my 
district and overheard one of these conversations, somebody at 
the desk talking--you know, a guest thought they were all 
signed up, and it is like, nope, and they were a victim of a 
fraud. And I think we are all trying to figure out how do we 
stop that as we encourage tourism.
    So, Madam Chair, I don't have anything else. Thanks for 
having this hearing. This is really an important set of issues 
we hopefully will move forward on soon and get them across the 
finish line. So with that, I yield back.
    Ms. Schakowsky. The gentleman yields back.
    And now I recognize Congresswoman Matsui for 5 minutes.
    Ms. Matsui. Thank you very much, Madam Chair.
    And it seems like we are having a competition here about 
which got the best breweries and wineries and things like that, 
but, you know, I have to hand it to Brand USA, you seem to keep 
it all kind of balanced out.
    Because tourism in California in particular is a major 
economic driver, in my district of Sacramento alone, the travel 
industry earned $4.1 billion in spending and supported more 
than 31,000 jobs. And Visit California is a founding partner of 
Brand USA, and this partnership has been really vital to our 
State's economy. And as tourism in California continues to 
grow, I want new international tourists coming to experience my 
district of Sacramento's wineries, museums, and restaurants.
    Now, I have to compliment Brand USA, because we always hear 
about the gateway cities like Los Angeles and New York, but the 
midsize cities like Sacramento really do appreciate your 
emphasis, in a sense, attention to these cities, because we 
have a growing economy with interesting types of tourist 
attractions.
    I want to talk about the international competition. Since 
it was authorized, Brand USA has helped the U.S. stay relevant 
in an increasingly competitive international tourism 
marketplace. While tourism in the United States still makes a 
significant contribution to the economy, it has been declining 
recently. The United States' share of the international tourism 
marketplace dropped from 13.7 percent in 2015 to just 11.7 
percent in 2018. Brand USA's campaigns have supported nearly 
52,000 incremental jobs per year and helped combat this drop.
    Ms. Barnes, what risk do you see associated with failing to 
promptly reauthorize Brand USA in terms of employment in the 
travel and travel-related industries?
    Ms. Barnes. Sure. So, in the travel industry, it is a top-
10 employer in the United States, and without Brand USA, we 
would be at a real risk of losing not only the international 
visitors that spend on average $4,200, but we would be putting 
ourselves in a position, vis-a-vis the market share with other 
countries, of being the only one of the top 20 destinations 
that would have no marketing arm. And with $47.7 billion of 
economic input as a result of Brand USA and the 52,000 
incremental jobs each year that you have noted, it would really 
be bad for the economy.
    Furthermore, 74 percent of international travelers, when 
they come to the U.S., leave with a more favorable view of the 
U.S. And so the diplomacy value is also very significant. So it 
would be negative from an economic perspective, and it would be 
negative from a diplomatic perspective. So we need Brand USA to 
continue to welcome international visitors here.
    Ms. Matsui. OK, certainly. Now, Brand USA plays a critical 
role in marketing the U.S. as a travel destination to 
international travelers, but marketing is only part of the 
solution to increase international tourism spending in the 
United States. International visitors often struggle with the 
long Customs lines at airports, and we know that some are so 
concerned about uncertainty and wait times that they choose not 
to visit at all. These delays can really stifle tourism and 
hamper economic growth.
    Mr. Thompson, can you describe Brand USA's role in 
communicating U.S. visa and entry policies to international 
travelers?
    Mr. Thompson. Yes, Congresswoman. Aside from the legal 
responsibility on the promotion side, we are also responsible 
for communicating accurate and timely travel policy. So in many 
cases, we are dealing with perceptions versus reality of what 
is actually happening versus what people are perceived that is 
happening. And that has to do with people's abilities to get 
visas. Certainly, there are isolated instances of longer wait 
times, but for the most part, the wait times have come down 
pretty drastically over the last couple of years.
    As it relates to how we welcome everybody, certainly there 
are isolated instances of long lines, but again, those are, in 
most part, the exceptions to the rule, and our job is to make 
sure that we separate the perception from the reality and make 
sure people understand how easy it is to get here and how easy 
it is still to get a visa.
    Ms. Matsui. OK. I was wondering about this, because you all 
have been very successful on marketing yourself and our 
country, but how does Brand USA's funding structure differ from 
other countries'?
    Mr. Thompson. I will start. I can't speak to every other 
country, but I think the one thing that makes ours very 
different--and I like to say it in lay terms--ours is visitors 
paying to grow the visitor entry. So our funding comes from the 
small fee that members of the visa waiver countries, visitors 
from visa waiver countries pay. So I think that is the biggest 
difference. I think Ms. Barnes in her testimony suggested that 
much of our competition that is as well-funded or more funded 
than us are public dollars that are actually being contributed. 
Ours is no tax dollars, no tax burden.
    Ms. Matsui. Fine. Thank you. And I ran out of time.
    Appreciate it. Thanks. I yield back.
    Ms. Schakowsky. The gentlewoman yields back.
    And now we have yet another acting----
    Mr. Carter. Not just another, Madam Chair, this is a 
special one.
    Ms. Schakowsky [continuing]. A special acting, and I 
recognize Mr. Carter for 5 minutes.
    Mr. Carter. Thank you, Madam Chair. And thank all of you 
for being here.
    I am sorry to tell you that I represent an area, the 
coastal area of Georgia--unfortunately, we don't have a lot of 
tourism. I mean, all we have to offer is the largest national 
historic landmark district in the United States in Savannah, 
Georgia. All we have to offer is the beautiful hundred miles of 
pristine coastline with the Golden Isles. All we have to offer 
is the Okefenokee Swamp and the Land of the Trembling Earth. So 
tourism is not really that important to us, I will tell you.
    We are very proud, as you can tell. Savannah is my home. It 
is where I have lived all my time. I was born and raised there, 
intend to live the rest of my life. And I am so proud of it, 
and so proud of the tourism part of it because, obviously, it 
is a job producer for us. Our economy depends so much on it. So 
that is why this is so very important to us and so very 
important to me as well. And I mentioned the Golden Isles, Sea 
Island, St. Simons, everything that we have--all that we have 
to be proud of, and that is certainly important.
    I wanted to ask you, Ms. Barnes, since 2013, do you know 
how many international visitors have come to the U.S.?
    Ms. Barnes. Oh, sorry. I believe that there have been--it 
has created 1.2 million American jobs, and Mr. Thompson 
probably has the exact number, but we have had--I am--it is 
lost my head.
    Mr. Carter. That is OK.
    Mr. Thompson?
    Ms. Barnes. Sorry, 52,000 incremental American jobs each 
year.
    Mr. Carter. Wow.
    Mr. Thompson. Yes, sir.
    Mr. Carter. So very important, obviously, to the First 
Congressional District of Georgia that I have the honor and 
privilege of representing. So thank you for your work.
    Can you explain to me, Ms. Barnes, how does the partnership 
model work between Brand USA? And how do you equate that 
marketing specific areas of the United States?
    Ms. Barnes. Sure. So I am going to let Mr. Thompson answer 
that question.
    Mr. Carter. Yes, that is fine.
    Mr. Thompson. So we deploy resources, Congressman, across 
three major buckets. One is our direct-to-consumer messaging, 
which is our owned assets that we take to 14 markets around the 
world. We have an active relationship with the travel trade 
around the world with 16 offices that we actually have. And 
over half of our resources are spent in cooperative marketing. 
That is with us channeling our dollars in partnership with the 
cities and States all around the country.
    And, again, that is a formula of cooperative marketing that 
allows us all to extend our resources so that, if it is one 
plus one, it equals three or four. If it is one plus one plus 
one, it equals four or five, six or seven. And that is the 
ability that we bring mostly because of the economies to scale 
that we have in the marketing relationships we have with media 
sources around the world.
    Mr. Carter. So the model that you use, which applies the 
fees through ESTA and the Visa Waiver Program, is that better 
than any other model that you can think of?
    Mr. Thompson. Congressman, as for what I know, I know of no 
other that does not involve tax dollars. Or if there are, there 
are very few of them.
    Mr. Carter. Great.
    Mr. Thompson. And I think that is the beauty of this 
public-private partnership, that it is, in layman terms, as I 
said earlier, visitors paying to grow the visitor industry, 
which makes it one of the purest public-private partnerships 
and allows us all to extend resources to the benefit of the 
entire country.
    Mr. Carter. Right. You know, not only are we home to all 
the great things that I mentioned before, but we also have two 
major seaports, the port of Savannah and the port of Brunswick, 
that we are very proud of. And one of the things that we often 
talk about there is the trade deficit.
    And I wanted to ask you, Ms. Barnes, in your testimony, you 
said that travel is America's second-largest export. If we 
didn't have that, would our trade deficit be even higher?
    Ms. Barnes. Absolutely. In 2018, we had a travel trade 
surplus of $69 billion. Without international travel, it would 
have been 11--the trade deficit would have been 11 percent 
higher. So when international visitors come here, they spend 
money in our restaurants, in our hotels, in retail and 
otherwise. That is considered an export. And in the travel 
industry, it is the number-two export for the U.S. economy 
overall.
    Mr. Carter. Great. And that only adds to the fact, and I 
certainly would be remiss if I didn't mention that the Port of 
Savannah is one of the few ports in America that consistently 
has more exports than they do imports. So adding onto that with 
the tourism, we are doing our part in that part of the country 
as well.
    Mr. Burstein, can you explain very quickly the SAFE WEB 
Act's provision that authorizes staff exchanges between our 
benefits and how it benefits the Commission?
    Mr. Burstein. In a nutshell, basically, this provision 
allows the FTC to onboard visiting officials from foreign 
agencies, subject to appropriate security and confidentiality 
requirements. The benefits of doing that are--sort of play out 
over the long term. It helps a lot to have partners overseas 
who understand the FTC well and the laws that it enforces. That 
just helps build trust and helps both agencies on both sides 
identify opportunities for cooperation and figure out how to 
navigate it in specific cases.
    Mr. Carter. Great. Well, thank you very much, and thank all 
of you for your work. As I say, this benefits our district and 
our country tremendously. So thank you.
    Ms. Schakowsky. The gentleman yields back.
    And, Mr. McNerney, you are recognized for 5 minutes.
    Mr. McNerney. I thank the chair, and I thank the acting 
ranking member. And I thank the panel for your time today.
    There are some lesser-known destinations, like my district, 
that are really hidden gems for foreign tourists. Whether it is 
visiting Lodi wineries or the Bay Delta or Big Break or Antioch 
Dunes, there is a lot in my district for travelers around the 
world to look at.
    Mr. Thompson, can you talk about how Brand USA benefits 
less traditional destination spots?
    Mr. Thompson. Yes, sir. Again, the legal charge is that we 
are responsible for doing that, promoting beyond the gateways. 
So the beauty of the internet, the beauty of the fact that most 
of our marketing is done on digital and social marketing 
channels, allows us to see those conversations on those social 
marketing channels, see the conversations that are deployed and 
the marketing that we do on the digital channels, and then it 
all refers back to our website. And on our website, we have the 
ability to promote the entire geographic experiences, the 
lifestyle experiences that you can have anywhere in the United 
States. So most of what would be represented in your great part 
of the State of California would be included in that overall 
promotion.
    Mr. McNerney. Well, thanks. So how could smaller towns and 
businesses take advantage of Brand USA's resources?
    Mr. Thompson. Well, in a lot of cases, there is a local 
convention and visitors bureau or one nearby that is charged 
with telling the story, specifically about that part of the 
State of California. And, as was mentioned by the Congresswoman 
also from California, Visit California is a very good statewide 
representation of what all there is to see and do in 
California. We would not attempt to try to tell those stories 
on our own because we couldn't tell it as well as those 
destinations tell those stories.
    Mr. McNerney. True.
    Mr. Thompson. Our job is to make sure those stories are on 
our platforms, are amplified through our platforms, and are 
pushed out to those that are interested in those type of 
lifestyle interests or specifically visiting the State of 
California.
    Mr. McNerney. Well, thank you. That is good.
    Mr. Thompson. Yes, sir.
    Mr. McNerney. Mr. Burstein, a lot has changed since 2006 
when the SAFE WEB Act was passed. Ninety-eight percent of 
Americans own cell phones. Eighty-one percent own smartphones. 
Internet usage has exploded. And that really opens up 
opportunities for malicious actors who are employing more 
sophisticated techniques and technologies.
    Would you agree that the need for the U.S. SAFE WEB Act has 
increased since 2006?
    Mr. Burstein. I would certainly agree, for the reasons that 
you point out. And as use of connected devices has increased 
and the number of devices has increased, perpetrators of fraud 
and scams have also become increasingly sophisticated and can 
take advantage of other ways to carry out their schemes.
    Mr. McNerney. Are there specific types of cross-border 
fraud that we ought to be aware of?
    Mr. Burstein. You know, I think any of the types of 
consumer protection matters that the FTC deals with generally 
can have a cross-border element. It becomes especially 
challenging for the FTC and helpful to have SAFE WEB authority 
where there is money moving overseas, and the Act gives the FTC 
the authority to go after--very specific authority to go after 
foreign actors and to potentially obtain assets to help 
compensate victims.
    Mr. McNerney. I mean, for an individual that has been 
defrauded, is it viable for them to go to the FTC and get some 
remedy?
    Mr. Burstein. The FTC, I think, as a general matter, 
doesn't really address specific individual complaints but 
instead looks at trends and looks at cases where they can 
obtain relief for a significant number of consumers. And that 
is sort of what guides the agency's decision, but certainly, 
they receive individual complaints, and those are important 
elements of determining what to investigate and which cases to 
bring.
    Mr. McNerney. What would happen to U.S. companies if the 
U.S. SAFE Act were to expire?
    Mr. Burstein. If the act were to expire, all of the 
authorities that it provides to the FTC currently would go 
away. So, for example, the fact that some companies are victims 
of cross-border frauds, you know, whether it is sort of 
business-to-business types of schemes, those could potentially 
be more difficult for the FTC to prosecute. Sometimes 
companies' names might be used. For example, a company's name 
might be used to, say, tell a consumer that they need to get 
their device serviced as a sort of tech support scam. So that 
would be another way that companies could lose out if SAFE WEB 
were not to be renewed.
    Mr. McNerney. OK. I yield back.
    Ms. Schakowsky. The gentleman yields back.
    And now I recognize Congressman Soto for 5 minutes for 
questioning.
    Mr. Soto. Thank you, Madam Chairwoman.
    Certainly, we are big supporters of Brand USA in the 
Orlando and central Florida area. I think it bears discussing 
real quick how Brand USA works for my constituents. Fourteen 
dollars through the Visa Waiver Program for the Electronic 
System Travel Authorization, passenger screening fees, all that 
goes together to develop $100 million paid for by tourists 
coming into the country and matched by private-sector money. So 
$200 million. Plus, another $60 million back to the Treasury, 
which certainly is no shabby feat there. So this is a self-
funded program with $47.7 billion in economic output. So 
definitely a great value.
    We know the story in Orlando: 126 million tourists to 
Florida, seventy-five million of those went to our region. Of 
those, about 10.8 million international tourists. We are up 
with Canada, we are up with Brazil, but we are down with the 
U.K. and some of our European brothers and sisters. So we know 
we can't take it for granted, international travel, and that is 
where Brand USA, with our partners in Florida and other States, 
play such a critical role.
    The other thing to understand, and I know our panel 
understands, is the big attractions they are already 
advertising: Disney, Universal, Sea World, Legoland. Try to go 
to any State or territory in the Nation and beyond and not see 
the commercials. But it is the small businesses that seem to 
get the most bang for the buck out of Brand USA and Visit 
Florida. Like the U.S. Tennis Association and Gatorland in 
eastern Orlando, east Orange County; the Paddling Center, if 
you want to paddle on the Shingle Creek; or Pioneer Village in 
Osceola County, and see our rancher heritage there; Bok Tower, 
where you can see unique flora and fauna, as well as the 
central Florida sports complex, both in Polk County; and then 
all the mom-and-pop hotels that are along 192, and I drive, all 
benefit from having those little internet ads and getting those 
Google searches right and all the other little tricks of the 
trade to connect to this.
    So it would be helpful if I could hear from both Mr. 
Thompson and Ms. Barnes about your opinions on how this helps 
small tourist businesses in a lot of our districts. And we will 
start with Ms. Barnes and then Mr. Thompson.
    Ms. Barnes. So thank you for the question. I think one of 
the things to highlight or that you noted is that the Disneys 
of the world, who are very important members and partners in 
this, have the resources to sort of market themselves. But it 
is these smaller destinations that don't have the resources 
without collaborating with Brand USA that wouldn't be able to 
market in such platforms across the globe. So it is really 
those smaller destinations that benefit the most. And I will 
let Mr. Thompson answer more specifically that answer as well.
    Mr. Soto. Sure.
    Mr. Thompson. Congressman, I appreciate your comments. 
Again, Florida is my home State. And I was with Visit Florida 
for 15 years, so I know that model well, and I know the 
relationship that we have had with them.
    You know, even though Disney and those major players in 
Orlando do a lot on their own, they also find ways to partner 
with us.
    Mr. Soto. And we don't take them for granted----
    Mr. Thompson. Yes, sir.
    Mr. Soto [continuing]. That they are leading the charge in 
central Florida. But I think sometimes there is a notion that 
it is just going to some of these major tourism attractions, 
when it goes all throughout.
    Mr. Thompson. And I think with our sensitivity to and legal 
responsibility to looking beyond the gateways, I will use a 
destination that often--that doesn't have the recognition 
Orlando has, which is Kissimmee. You mentioned 192.
    Mr. Soto. Sure----
    Mr. Thompson. Kissimmee is a major cooperative marketing 
partner with us because--for that very reason. They see the 
opportunity to raise the awareness of that destination, which 
is, you know, right border to Orange County and oftentimes not 
recognized at the same level that Orange County because of all 
the major infrastructure. A lot of people don't realize there 
is a big portion of Disney that is actually in Osceola County.
    Mr. Soto. Sure. It is in my district.
    Mr. Thompson. Yes, sir. So you know it well. So I think 
that is--I think you are just preaching the real value 
proposition that we bring to the equation, is that we certainly 
do not take our gateways for granted, because other than the 
two countries we share a border with, that is the only way 
people get here. But once they get here, we make sure they 
understand that, not only are there those opportunities in 
those gateways, but within just a couple hours of each of those 
gateways, there is opportunities they are not even aware of.
    Mr. Soto. Sure.
    Mr. Thompson. Yes, sir.
    Mr. Soto. Well, thanks for that.
    I just want to end with a brief story that I was kayaking 
at the Paddling Center in Osceola and Kissimmee. It is no more 
than probably 5 miles, 7 miles from Disney World, and you get 
to kayak on Shingle Creek. And they get pretty much most if not 
all their customers from just a simple Google search of Disney 
and kayaking, or Orlando or Kissimmee and kayaking. And it is 
all based upon those ads that come from Visit Florida that work 
with Brand USA. So we appreciate what you all do.
    And I yield back.
    Ms. Schakowsky. The gentleman yields back.
    And now I recognize Mr. Bilirakis for--what? I am sorry. 
What? Oh.
    Mrs. Rodgers. Go to Bill.
    Ms. Schakowsky. Thank you. Out of order, but still I 
recognize Mr. Bilirakis.
    Mr. Bilirakis. Thank you. I appreciate the recognition.
    OK. Well, Madam Chair, I know a lot has been said, and this 
is a great program, particularly for our hidden treasures. And 
I represent the Tampa Bay area, and we have many, many hidden 
treasures in the Tampa Bay area. I am not going to go through 
all of them, but this is a wonderful program, particularly for 
entities, whether they are cities, counties, chambers, what 
have you, and they don't have a lot of money to advertise. And 
this is a great partnership.
    So I have a couple questions. Mr. Thompson and Ms. Barnes, 
is there any other program in the Government that doesn't cost 
taxpayers a dime but provides 25-to-1 return on investment? And 
can you explain how Brand USA determines its success in this 
regard? It is a tough question, right?
    Mr. Thompson. So, Congressman, thank you for your 
sponsorship of this bill and for all you have done for the 
State of Florida, my home State, and for what you are doing for 
Brand USA. We are very--I am not in a position to speak to any 
other program and how they are funded and how it would compare 
to ours. All I can speak to is ours. We are very proud of our 
ROI study. You mentioned the 25-to-1 return on investment. That 
is consistent over the 6 years of our existence. It is verified 
by an outside third party with credibility. It measures our 
reach into markets across all of our marketing channels and our 
ability to influence the intent to travel to the United States. 
It has been consistent over the 6 years, and the numbers that 
have been well documented and articulated here is that it is 
in--you know, resulted in the over 6 million incremental 
visitors over those 6 years and the collective spend of nearly 
$48 billion.
    So I would say that that has been the one consistent thing 
that I think we have been able to bring forward as our 
accountability to Congress. And the methodology, the entire 
study for the last year's ROI, is included on the record and is 
available for each and every one of you and your staff to be 
able to look at, as far as the methodology and the end result.
    Mr. Bilirakis. I appreciate it very much. Again, the proof 
is in the pudding.
    Mr. Thompson. Yes, sir.
    Mr. Bilirakis. And we did put in--when we reauthorized 5 
years ago, we put in further accountability measures, and we 
have improved the bill as well this year.
    So another softball here. Mr. Thompson and Ms. Barnes, your 
testimonies both discuss the urgency of reauthorizing Brand USA 
and extending its funding source. Can you elaborate on this and 
explain why we need to get this done this year as opposed to 
waiting until next year? And I know that is very important. It 
is critical.
    Mr. Thompson. Congressman, I will take that one, if you 
don't mind, also.
    Mr. Bilirakis. Sure.
    Mr. Thompson. I emphasized that in my testimony and the 
fact that destination marketing requires at least a 12-year 
planning window and--I mean, excuse me, 12-month planning 
window. In many cases, it is 18 months.
    Mr. Bilirakis. Right.
    Mr. Thompson. Our success over these 6 years, documented by 
our ROI study, is our ability to go in and do the research 
necessary to qualify the markets, to qualify the opportunities, 
and to make sure that we are deploying the resources in the 
most efficient and effective way that we can do it. We are 
already inside the 12-month window for planning for 2021, much 
less the current fiscal year. So every month that goes by, it 
is compromising our ability to have an influence on this 
current fiscal year and also compromising our ability to have 
the same influence we have had over the last 6 years and the 
following fiscal year.
    And that is not just for us, it is our partners here in the 
United States who also have their own planning cycles, and as 
important, our tour operators and our media companies that we 
work with in the markets that we are promoting in. They are 
also making decisions on where they are going to deploy their 
dollars and who they are going to promote. Without adequate 
planning time, we compromise our ability to be as efficient and 
as effective as we have been in the past.
    Mr. Bilirakis. The bottom line is, you need certainty.
    Ms. Barnes, do you want to add anything?
    Ms. Barnes. Sure. I would just add that the certainty 
really is critical. I mean, this is not a typical government 
program. It can't be retroactively reinstated in a way that 
would allow Brand USA to continue the strong work that it does, 
as Mr. Thompson just noted. And I would also just highlight 
that, you know, as I noted, if Brand USA were to go away, we 
would be one of the top 20 destinations, the only one, that 
doesn't have a travel promotion marketing budget, and that 
would be really catastrophic from an economic perspective.
    Mr. Bilirakis. I agree.
    I have a couple more questions but, Madam Chair, in the 
interest of time, I will submit them for the record. But I will 
encourage all Members to please cosponsor this bill, and also, 
the people listening at home, this is really great for your 
economy, and encourage your Member. Please encourage your 
Member to cosponsor the bill and support the bill.
    Thank you, and I yield back, Madam Chair.
    Ms. Schakowsky. The gentleman yields back, and I thank him 
for his leadership.
    And now I recognize for 5 minutes Congresswoman Blunt 
Rochester.
    Ms. Blunt Rochester. Thank you, Madam Chairwoman. And thank 
you to the panelists.
    I would be remiss if I did not do a commercial for the 
First State, which no one can take away from us, because we are 
the first State, Delaware, and in that regard, we have culture, 
everything from the Clifford Brown Jazz Festival and Rehoboth 
Beach Jazz Festival to the Bob Marley People's Festival, 
Firefly, and the Apple Scrapple Festival, for those of you who 
like apples and scrapple. We also are very historic, including 
stops on the Underground Railroad. We have farms that grow 
great vegetables and fruit, but also we have dairy. So we have 
the best ice cream in the United States of America. And also, 
we are known for tax-free shopping. I know there are some snaps 
out there for tax-free shopping. And last but not least, I 
would just mention our pristine beaches. We have some beautiful 
beaches. Our slogan is ``endless discoveries'' because there 
are many discoveries that a lot of times people don't know 
about such a small State. And I think that is why this hearing 
is really vitally important for the economic viability of our 
country, but also just to share across the world the things 
that we have.
    And I had the opportunity to live in China for a few years, 
and the country of America is called Meiguo. Mei is for 
beautiful. We are known as the beautiful country. And so what 
you do is really an opportunity for us to showcase that.
    And my questions really start with taking up with Mr. 
Soto's comment about small areas, small States. Particularly, I 
understand that the Travel Promotion Act mandated that Brand 
USA treat rural and urban markets equally, including smaller 
markets that are not as visited by international travelers.
    And so I just wanted to ask Mr. Thompson, does Brand USA 
face any barriers to achieving that goal of promoting travel to 
small and rural markets? Are there areas of improvement that 
you see? And then, how can we as Members of Congress help in 
those areas of improvement, in addition to supporting the great 
work of Mr. Welch and Mr. Bilirakis?
    Mr. Thompson. Congresswoman, lots of questions. I would 
say, as it relates to our mandate to promote the entirety of 
the United States, a State like yours is well represented on 
our digital platforms. You know, traditional advertising in the 
destination space was a 30-second ad, and it would be 
impossible to talk about what there is to see and do in the 
United States in a 30-second ad. So that is why we really 
concentrate on the digital platforms, the social media 
platforms. And so all the stories being told by your 
destinations within your State that are on the internet are 
then amplified by what we are doing.
    You know, support of this bill and our ability to move 
forward is the most critical part of what we are looking for. 
Obviously, there are other travel policy issues that are 
related, but being selfish, our reauthorization is the one I am 
focused on right at the moment.
    Ms. Blunt Rochester. Well, I want to tie it into your 
reauthorization. That is why I asked the question.
    And, Ms. Barnes, you might want to answer as well, if there 
are things that we could do, particularly for smaller and rural 
areas.
    Ms. Barnes. I think, quite honestly, the voice of Members 
of adding as a cosponsor, which I believe you are, encouraging 
other colleagues from other small States as well, I think 
States throughout all of the United States, and I think also 
voicing, you know, the strong bipartisan support, moving 
forward with the congressional leadership and really urging 
this to be, you know, not only marked up but included in a 
must-pass legislation before the end of this year.
    Ms. Blunt Rochester. Gotcha. Great.
    One other question I had was about people who travel here 
internationally but they are already in the country. And I 
know, through concierges and other ways, you are able to reach 
out to them, but can you describe just some successful efforts 
that you had in that regard, people who get here and then have 
to go out to other places?
    Mr. Thompson. You know, long-haul travel is a major 
investment, not only of dollars, but of planning. So in many 
cases, our visitors are coming here, and as Ms. Barnes stated, 
they stay for an extended period of time. So they are here for 
weeks at a time. So much of what they are planning is they know 
that they are going to come in at one destination, and they may 
be leaving at another destination, and they may be driving or 
flying in between.
    The ability that we have on our platforms to be able to 
talk about what there is to see and do in between is what fuels 
a lot of those decisions, yes, ma'am.
    Ms. Blunt Rochester. Great. Thank you.
    And I yield back.
    Ms. Schakowsky. And now it is my pleasure to yield 5 
minutes to the real ranking member of this committee, Mrs. 
McMorris Rodgers.
    Mrs. Rodgers. I thank the chair for yielding.
    And I apologize, I was down at DOT speaking on autonomous 
vehicles, self-driving cars, which is also exciting. Clearly, 
though, I am picking up on here, I think we are going to have 
to do a taste test on ice cream, because we have the Washington 
State University Creamery that I will put up against anyone 
else, and we will have a little social in our future. That will 
be good.
    But great to hear about Brand USA. I wanted to go back to 
the legislation that I am proud to be helping lead this 
Congress, and that is the reauthorization of the U.S. SAFE WEB 
Act. And we had a hearing earlier this year with the FTC. All 
five FTC Commissioners were at the hearing, and they were 
talking about how critical it was to reauthorize the 
legislation, critical to the agency's international work.
    So I wanted to ask Mr. Burstein--and Robin Kelly and I are 
working on this legislation together--would you just explain 
how the Commission uses the tools the Act provides, and what 
the effect would be if we failed to reauthorize it?
    Mr. Burstein. Yes. Thank you for the question. I think 
there are three main ways that the FTC uses the SAFE WEB Act in 
its investigative capacity, and then one that is more of a 
general agency relationship-building mechanism.
    In terms of its use in investigations, you can think of it 
as helping information to flow in two directions. One is that 
it allows the FTC to provide assistance to foreign law 
enforcement agencies, to provide information to them, and the 
actions of those agencies can support or complement actions 
that the FTC itself brings. The Act also allows the FTC to 
guarantee confidentiality of information that it receives from 
foreign law enforcement agencies. And then a third 
investigative and operational impact of the Act is that it 
gives a very clear grant of authority for the FTC to bring 
cases against foreign actors who cause harm in the United 
States, as well as to bring actions against entities that have 
some aspect of their conduct occur in the U.S. but harm 
consumers overseas.
    So those are the three main ways that the act supports the 
FTC's investigations and enforcement actions.
    In addition to that, there is a provision that allows the 
FTC to conduct staff exchanges, and under this authority the 
FTC has hosted dozens of officials from foreign law enforcement 
agencies. Those folks gain a better understanding of how the 
FTC works. And when they return to their home countries and go 
back to working in their law enforcement agencies, they can 
become better contacts, trusted contacts at the FTC, and that 
can establish a foundation for more effective enforcement 
cooperation.
    Mrs. Rodgers. Would you give us some examples of what would 
happen if we did not have the U.S. SAFE WEB Act in law?
    Mr. Burstein. So I think, generally, it would impair the 
FTC's ability to get information from foreign sources. The 
confidentiality protections are very important in that regard, 
and it might make foreign law enforcement agencies less willing 
to provide information that can help the FTC conduct its 
investigations.
    The extraterritorial authority that I mentioned is also, I 
think, extremely useful in some FTC cases. Foreign defendants 
might become more willing or emboldened to challenge the FTC's 
authority if there weren't this clear statutory authorization 
saying that they are subject to the FTC's authority.
    Mrs. Rodgers. OK, thank you.
    And then, Ms. Barnes, I know we have been talking a lot 
about USA Brand. Would you just speak to the economic impact 
and the number of American jobs that Brand USA has meant?
    Ms. Barnes. Sure. So since 2013, Brand USA has brought 
$47.7 billion in economic input to the U.S., creating 52,000 
jobs annually, incrementally, incremental jobs. And 
importantly, international travelers, when they come here, they 
spend $4,000. Chinese travelers, for example, might spend as 
much as $7,000. So in addition to the positive, economic 
benefits when these international travelers come here and 
leave, that is considered an export. And so there has also been 
a $69 billion travel trade surplus created by international 
travel, helped by Brand USA in 2018. And were it not for 
international travel, the trade deficit would be 11 percent 
higher, so significant economic input and jobs created.
    Mrs. Rodgers. Super. Thank you.
    I yield back.
    Ms. Schakowsky. Thank you. The ranking member yields back.
    And now, last but not least, I want to give 5 minutes for 
questioning to the sponsor of the legislation, and that is 
Peter Welch.
    Mr. Welch. Thank you very much.
    You have been good witnesses, so we have gotten the 
information. I was going to reiterate the importance--you have 
been clear about the importance of passing this now because of 
the lead time, so I won't ask you to say it again. I think you 
have made the point very, very clearly. But I do want to 
emphasize the urgency that we act. And I want to thank 
Chairwoman Schakowsky because she realized that very much, and 
that is why we are having this hearing.
    Secondly, though, I do want to talk a little bit about what 
is happening with China, because we used to have significant 
visitors from China. Obviously, there is some turmoil. We have 
got a battle about trade and other political issues. And their 
visits are down and their spending is down.
    How can Brand USA help us mitigate that loss of a very 
important market?
    Ms. Barnes. Thank you. And thank you so much, Congressman, 
for your leadership on this important issue. Brand USA is so 
important, and we would not be where we are without you, so 
thank you.
    Travel from Chinese is, in fact, down. It is down from 
about 3.2 million visitors to about 3 million. And a lot of 
that is a result of not only the strong dollar, but the trade 
tensions with China. I will let Mr. Thompson talk a little bit 
more about this, but from our perspective, from an industry 
perspective, were Brand USA not in China with their four 
offices, we would be in a really bad position, because we know 
that they are there, and they are still encouraging and working 
to drive international travel.
    Mr. Welch. So you have to get the counter story out----
    Ms. Barnes. Yes, absolutely.
    Mr. Welch [continuing]. That it is safe to be here, you are 
welcome to be here, and we are waiting for you to come.
    Go ahead, Mr. Thompson.
    Mr. Thompson. Congressman, I will add my thanks for your 
leadership in this regard. It is very much appreciated.
    You know, I said in my testimony and in response to some of 
the questions, the amazing power about travel is that it has 
the ability to transcend politics. We have our fingers on the 
pulse of the sentiment in China, and the sentiment in China as 
it relates to U.S. being the most aspirational destination in 
the world has not changed.
    Mr. Welch. That is good.
    Mr. Thompson. So, as there are trade tensions between our 
two countries, what makes the United States aspirational has 
little to do with politics. It has everything to do with the 
destinations, the experiences you can have here, and also some 
of the most welcoming people in the world.
    Mr. Welch. Great.
    Mr. Thompson. So our ability to stay connected to the 
travel trade through our four offices, our ability to stay 
active on the digital and the social media platforms, and doing 
it in China is like no other place. We had to build a whole 
separate digital platform to do so. So we are there and we are 
staying strong as far as our commitment there, because it is 
such an emerging market.
    Mr. Welch. Thank you very much.
    And one other question that always arises when there are 
advertising campaigns is how do you measure whether it is 
working, because you can't link a particular purchase to a 
particular ad. But on the other hand, it is in your interest, 
obviously, to have some confidence that it is working. And can 
you just speak to that?
    Mr. Thompson. Well, I would speak to it in two ways. One is 
the ROI study that is on the record that talks about our ROI, 
which over 6 years has been 25 to 1, as far as dollars 
invested. Again, no taxpayer dollars but----
    Mr. Welch. Right.
    Mr. Thompson [continuing]. Visitor dollars that are 
invested to grow the visitor industry, a 25-to-1 return. And I 
would suggest the other way that we measure that is, over our 
history, we now have over a thousand partners that partner with 
us on a regular basis. Those are destinations and brands here 
in the United States, it is tour operator companies, and it is 
media companies around the world. And we have a 94 percent 
retention rate with those partnerships. And, if what we were 
doing in deploying in market wasn't working, I don't think that 
we would have that high of a retention rate.
    Mr. Welch. Ms. Barnes, do you have anything to add?
    Ms. Barnes. No. I would just echo that. And I think that, 
in addition to that, testimonials on the ground. I know you 
were recently at a fall foliage festival in Vermont, and I 
think hearing firsthand from the bed and breakfasts and the 
other folks in different States highlighting the importance of 
Brand USA driving customers, there is another important touch 
point in the testimonial voice.
    Mr. Welch. Great. Thank you.
    I yield back.
    Ms. Schakowsky. Thank you.
    I want to thank our witnesses. You had an opportunity to 
have a little travelogue here, yourselves, the wonderful 
districts that we are so proud to represent. And I want to 
thank all of you for coming, sometimes having to repeat 
yourself, but I am so happy that people were in and out of this 
hearing and were able to hear the background on both of these 
pieces of legislation.
    I remind Members that, pursuant to committee rules, you 
have 10 business days to submit additional questions for the 
record to be answered by the witnesses who have appeared. And I 
ask the witnesses, please, to respond promptly to any questions 
that you may receive.
    I request unanimous consent now to enter the following 
documents into the record: a letter from the Federal Trade 
Commission, a letter from the Electronic Privacy Information 
Center, and a letter from the American Hotel & Lodging 
Association. And with no objection, so ordered.
    [The information appears at the conclusion of the 
hearing.]\1\
---------------------------------------------------------------------------
    \1\ The Electronic Privacy Information Center letter has been 
retained in committee files and also is available at http://
docs.house.gov/meetings/IF/IF17/20191029/110153/HHRG-116-IF17-20191029-
SD006.pdf.
---------------------------------------------------------------------------
    Ms. Schakowsky. At this time, the subcommittee, with our 
thanks, is adjourned.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    We are here today to discuss the reauthorization of two 
important programs that protect and support American consumers 
and businesses. The first promotes foreign travel to the United 
States, which bolsters our economy and creates American jobs. 
The second enhances the Federal Trade Commission's cross-border 
cooperation and enforcement so it can protect U.S. consumers 
and businesses from foreign actors engaged in fraud and 
deception.
    Our Nation has a broad variety of unique treasures that 
attract tourists from all around the world. Whether you're 
looking for arts or adventure, nature or theme parks, music or 
sports, there is something for everyone in our country.
    Tourism is a critical industry in my district and 
throughout New Jersey. From hiking in Sandy Hook to pilgrimages 
to the Stone Pony in Asbury Park, foreign and domestic 
travelers are helping hotels, restaurants, and other small 
businesses grow and succeed. But we can always welcome more 
visitors from abroad.
    Brand USA--established by the Travel Promotion Act of 
2009--makes sure that foreign tourists are aware of the endless 
possibilities available to them when they travel to the United 
States.
    I applaud Representatives Welch and Bilirakis for their 
work over the years to ensure the success and long-term 
viability of this important program. They have now introduced 
legislation that would ensure Brand USA is funded through 2027.
    It's important that we continue to support Brand USA's 
mission. International travel to the United States supports 1.2 
million American jobs. It also adds billions of dollars to our 
economy. A new study shows Brand USA's global marketing 
initiatives deliver an excellent bang for the buck. For every 
dollar spent on marketing by Brand USA, 28 dollars are added to 
the U.S. economy. As we continue to work to strengthen our 
economy, we should certainly look at extending Brand USA beyond 
next year.
    I also look forward to discussing legislation introduced by 
Ranking Member McMorris Rodgers and Representative Kelly to 
extend the U.S. SAFE WEB Act of 2006. Last reauthorized in 
2012, the SAFE WEB Act enhances the FTC's ability to protect 
U.S. consumers and businesses from cross-border fraud and 
deception.
    With the internet, advances in telecommunications, and our 
increasingly connected homes and businesses, Americans are more 
susceptible than ever to foreign actors engaged in fraud and 
deception, illegal scams, and spyware.
    The SAFE WEB Act affirms the FTC's ability to go after 
foreign actors engaged in wrongdoing. The law also bolsters the 
FTC's ability to exchange information and to provide 
investigative assistance to foreign law enforcement agencies. 
This kind of cross-border cooperation is crucial to the FTC's 
ability to bring strong enforcement actions.
    The FTC has relied on provisions of the SAFE WEB Act for a 
wide range of cases--from its takedown of a sweepstakes 
telemarketing scam targeting older adults to its action against 
a manufacturer of connected toys that violated the Children's 
Online Privacy Protection Act.
    However, without Congressional action this law will expire 
next year.
    We should extend both these programs to protect American 
businesses and consumers.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


                                 <all>
</pre></body></html>
